Office of
Inspector
General
Semiannual
Report to
the Congress
April 1, 1990 to
September 30, 1990



November 1, 1990
FOREWORD
This document summarizes Office of Inspector General (OIG) activity during
the 6-month period ending September 30, 1990. It is my tenth Report to the
Congress.
I am pleased that our accomplishments continue to reflect the benefits of an
active OIG presence in the General Services Administration (GSA). Notably,
through our audit and investigative efforts, we were able to achieve a return of
$8.40 for each $1 budgeted for our operations during this 6-month period. This
return is represented by management decisions on financial recommendations,
voluntary recoveries, court-ordered recoveries, and investigative recoveries to-
taling $106,593, 108. The impact of an effective, broad-ranging OIG presence on
the efficiency, effectiveness, and integrity of the Agency is further demon-
strated by audit recommendations that almost $144 million in funds be put to
better use, and by the referral of 308 investigative findings to prosecutive au-
thorities or GSA management.
These accomplishments are in large measure a tribute to the fine staff of profes-
sionals in this Office. The accomplishments also speak well of the cooperation
demonstrated by Agency management as well as the continued support of the
Congress, the Office of Management and Budget, and the GSA Administrator.




WILLIAM R. BARTON
Inspector General


October 31, 1990
OVERVIEW AND FOCUS ON OIG ACTIVITIES
This report, submitted pursuant to the Inspector Gen-                                                       company, and his wife, for submitting fictitious
eral Act of 1978, as amended, chronicles the activities                                                     bonding and bid information.
of the General Services Administration (GSA) Office                                                   •     The conviction of an advertising company
of Inspector General (OIG) between April 1, 1990 and                                                        owner for billing the Government for services
September 30, 1990. It is the twenty-fourth Report to                                                       never performed.
the Congress since the appoirltment of GSA's first In-
spector General.                                                                                  Detailed information on these and other activities is
                                                                                                  presented in Section II.

A. Audit and Investigative                                                                        Agency Operations
   Coverage of GSA Programs                                                                                    I
                                                                                                  This pedod, in a series of. internal reviews, the OIG
Audit and investigative coverage of GSA programs                                                  advised management of the need to:
identified a number of opportunities for more efficient                                               •     Ensure compliance with GSA asbestos abate-
and effective Agency operations during this period.                                                         ment regulations.
                                                                                                      •     Backcharge tenant agencies for space occupied
Procurement Activities                                                                                      rent-free.

OIG coverage of procurement activities focused pri-                                                   •     Reduce potential employee exposure to haz-
marily on preaward contract audits. We performed 254                                                        ardous materials and waste.
preaward reviews of contracts with an estimated value                                                 •     Strengthen controls over GSA's rent exemption
of $3 billion.                                                                                              process.
This period, significant OIG audits and investigations                                            In addition, an OIG investigation resulted in the con-
resulted in:                                                                                      viction of a former GSA automotive equipment repair
                                                                                                  inspector for fraudulent use of U. S. Government
  •   Six civil fraud settlement agreements totaling
                                                                                                  credit cards.
      almost $1.3 million.
                                                                                                  Detailed information on these and other activities is
  •   A management agreement to develop a stan-
      dards of conduct clause for inclusion in con-                                               presented in Section III.
      struction quality manager and other contracts.
  •   The entering of a $5,266,878 civil judgment
      against the president of a partitions supply firm                                           B. Statistical
      that provided unsafe products to Government
      agencies.                                                                                      Accomplishments
  •   The successful prosecutions of a bonding com-                                               The following table presents OIG accomplishments
      pany president and the owner of a construction                                              this period.

      Recommendations That Funds Be Put to Better Use ........................................ ..                             $143,974,149
      Questioned Costs ...................................................................................................      $5,610,971
      Management Decisions Agreeing With Recommendations That
        Funds Be Put to Better Use ...............................................................................             $99,084,634
      Management Decisions Agreeing With Questioned Costs, Voluntary
        Recoveries, and Court-ordered and Investigative Recoveries ...................... .                                     $7,508,474
      Audit Reports Issued ..............................................................................................          392
      Implementation Reviews Completed ....................................................................                         19
      Investigative Cases Opened ..................................................................................                264
      Indictments and Informations ................................................................................                 24
      Successful Criminal Prosecutions ........................................................................                     15
      Civil Settlements/Judgments ................................................................................                   7
      Contractor SuspensionslDebarments ..................................................................                          72
      Employee Actions ............................................... '" ............................................... .         32
      Inspector General Subpoenas ..............................................................................                    31
      Legislative Initiatives Reviewed ............................................................................                281
      Regulations and Directives Reviewed ..................................................................                        92
 c.   Focus                                                 that these proposals were valued at $1.4 billion. The
                                                            consolidated report also addressed how contracting
                                                            officers were hampered in their ability to negotiate
This section discusses new approaches to assessing          equitable prices because OIG requested technical
Agency operations which we attempted this period. It
                                                            evaluations were not provided by PBS in 52 of 93 in-
also briefly describes some areas where we see poten-
                                                            stances. Finally, consolidated internal audit results
tial vulnerabilities and where we will focus future at-     pointed out inadequacies in ensuring that the Govern-
tention. Overall, we believe Agency management has          ment pays only for what it receives. OIG reviews of
done a creditable job delivering GSA's services in an
                                                            individual leasing actions will continue, as will assis-
effective manner and ensuring that appropriate con-
                                                            tance to GSA contracting officials, and recurring re-
trols exist to deter fraud and to ensure efficient Agency
                                                            views of management activities will be specifically
operations.                                                 focused based upon program vulnerabilities.
                                                            In addition to the trends and issues disclosed in the
Consolidated Reporting-A New Assessment                     consolidated reports, other areas which will be subject
Tool                                                        to future attention are as follows:

The OIG was concerned that individual audit reports
were not fully addressing systemic issues. We there-        Multiple Award Schedule Program
fore initiated consolidated reporting as a means for
better assessing where program improvements can be          GSA's Multiple Award Schedule Program is designed
pursued in GSA. This tool differs from our usual prac-      to yield significant savings, through the procurement
tice of issuing audit and investigative reports on          of common use items at reduced prices, based upon
narrowly-defined subjects. Instead, our consolidated        the Government's unique position in the market
reports focus on broad systemic concerns brought to         place. In recent years, there has been a dramatic in-
light by audit activities. This approach provides a         crease in the dollar volume of the GSA Information
comprehensive overview of GSA operations and al-            Resources Management Service (IRMS) program for
lows both GSA and OIG management to focus on                automated data processing and telecommunications
trends and potential systemic issues much more effec-       equipment and services. Audit activity has revealed
tively than any single report.                              that many of the contracts now being awarded do not
                                                            appear to be for "off-the-shelf" commercial products.
The first consolidated report, "OIG Audit Highlights        Within the FSS program, our activities have shown
of Federal Supply Service (FSS) Activities in Fiscal        that inconsistencies exist in file documentation and
Year 1989," indicated that the submission by contrac-       contract clauses. Future energies will be directed to-
tors of inaccurate and incomplete discount schedule         ward identifying items in the $2.9 billion IRMS pro-
and marketing data is widespread. In 66 of 89 preaward      gram that could be competitively procured at lower
audits, almost 75 percent, offerors did not disclose the    prices, and improving the overall effectiveness of the
accurate and complete information needed to negoti-         $3.5 billion FSS program. In this regard, GSA manage-
ate best customer prices for the Government. In 63 of       ment has started its own review of this major program
the 66 audits, more than 95 percent, discounts and          and we will monitor the progress of this review.
concessions granted to non-GSA customers were
greater than those disclosed to the Government. We
will continue to investigate instances where false in-      Surplus Personal Property
formation has been submitted with a view toward
appropriate criminal, civil, and administrative re-         Each year millions of dollars worth of surplus Federal
medies. While consolidated internal audit report re-        property is entrusted to the states, which in turn fur-
sults revealed that supply and transportation               nish it to qualified donees. Many of the items, such as
programs have operational concerns stemming from            cars, boats, motors, and tools, are easily converted to
instances of noncompliance with basic management            personal use. Accountability, proper use, and disposal
practices, the results also showed that the Travel Man-     of donated property have been continuing concerns
agement Center Program is considered one of GSA's           following property transfers to state agencies. Over
most effective operations. We will give renewed em-         the years, the OIG has uncovered instances where lo-
phasis to assuring that corrective actions proposed         cal officials have taken property intended for schools,
by Agency management fully address identified               hospitals, and other non-profit concerns, and sold the
                                                            property for their own profit. As a result, several state
concerns.
                                                            and local officials have been convicted of theft of Gov-
The second consolidated report, "OIG Highlights of          ernment property. These cases received considerable
Public Buildings Service (PBS) Activities in Fiscal Year    media attention. The publicity has generated even
1989," revealed that deficiencies found in 72 of the        more allegations of wrongdoing. We intend to con-
100 preaward reviews of lease proposals were often at-      tinue to work closely with the states and FSS to identi-
tributed to personnel not following established poli-       fy vulnerabilities, eliminate opportunities for abuse,
cies or procedures-a significant finding considering        and prosecute wrongdoing.




ii
Contractor Sureties                                          functions should be subject to the same integrity stan-
                                                             dards as Federal employees. Continuing attention and
An emerging problem for GSA and other Federal agen-          activity are planned in this area.
cies is the surety and bonding area. Federal law re-
quires that contractors on Govern:ment building
projects post financial bonds to protect the Govern-         Product Substitution
ment against nonperformance by the contractor. Over
the past 3 years, we and other Federal investigative of-     This is an area of increasing concern. In addition to the
fices have seen a marked increase in surety fraud. The       monetary loss to the Government, we are concerned
estimates of losses to the Government and affected           because of the potentially hazardous situations that
small businesses extend to millions of dollars each          have been uncovered. At its best, product substitution
year. This period, we reported upon joint activities         is theft because the Government is paying for items
with other investigative units in gaining false state-       not received. At its worst, this practice threatens the
ment convictions against two companies for surety-           health and safety of anyone who comes into contact
related activity. In one case, officials of a construction   with the defective product. This period, we reported
firm executed a fictitious letter of credit from a non-      on product substitutions for two office products. In
existent bank. In the other case, the president of a         one case, the Government obtained a $5.3 million
bonding company submitted fraudulent bonding doc-            civil judgment against an officer of a partitions supply
uments to the Government. We intend to fully explore         firm that had sold flammable, rather than fire retard-
this area of concern to ensure that the Government's         ant, partitions to Federal agencies. In the other case, a
interests are protected by the issuance of legitimate        carpet supplier agreed to a $400,000 civil settlement
surety bonds.                                                and to replace defective carpeting not meeting smoke
                                                             density and flammability requirements.

                                                             Conclusion
Employee and Contractor Integrity
                                                             The Focus section has identified some of the systemic
Maintaining a high level of employee integrity is of         trends and programmatic areas where the OIG intends
paramount concern to our office. Our continuing GSA          to concentrate resources in the coming periods. We be-
employee education and integrity awareness efforts           lieve that the identification of these areas will serve to
serve as one means for the identification of instances       pull together the focus of our office as well as Agency
of potential wrongdoing. This OIG remains commit-            management. We recognize that a sustained and coor-
ted to the vigorous investigation of any GSA employee        dinated effort is needed to fully explore and resolve
involved in serious wrongdoing. For example, during          these issues. We will assist the Agency in this en-
this reporting period, we investigated several key offi-     deavor. At the same time, we will continuously moni-
cials, who subsequently resigned from the Agency.            tor these and other areas, giving particular attention
Our attention recently has been directed to concerns         not only to the traditional OIG concerns for fraud,
dealing with contractor integrity in those cases where       waste, and abuse, but also to whether GSA programs
functions, previously performed by Federal employ-           are conducted efficiently, effectively, and economi-
ees, are contracted out to the private sector. We be-        cally, with due respect given to public safety and the
lieve that contractors performing quality assurance          taxpayers' interests.




                                                                                                                    iii
TABLE OF CONTENTS

                                                                               Page                                                                          Page
OVERVIEW AND FOCUS ON OIG                                                             SECTION IV-REVIEW OF LEGISLATION
ACTIVITIES ............................................................... .          AND REGULATIONS ..............................................          10
BACKGROUND ........................................................              vi      A. Legislation/Regulations Reviewed ...........                      10
REPORTING REQUffiEMENTS ...........................                             vii      B. Significant Comments ..................................           10

SECTION I-ORGANIZATION,                                                               SECTION V-STATISTICAL SUMMARY
STAFFING, AND BUDGET ...................................                          1   OF OIG ACCOMPLISHMENTS ...........................                      12
    A. Organization ....................................................          1      A. Overview of OrG Activities ........................               12
    B. Office Locations ..............................................            1      B. Summary Statistics ................................ :......       12
    C. Staffing and Budget ........................................               1
                                                                                      APPENDICES
SECTION II-PROCUREMENT
ACTIVITIES ................................................................       2   APPENDIX I-AUDIT
                                                                                      REPORT REGISTER ..,..............................................       18
  A. Overview of orG Activity...........................                          2
  B. Significant Audits and Investigations ......                                 2   APPENDIX II-SIGNIFICANT AUDITS
  C. Significant Preaward Audits ........................                         4   FROM PRIOR REPORTS .........................................            40
SECTION III-AGENCY OPERATIONS ............                                        6
                                                                                      APPENDIX III-DELINQUENT DEBTS ............                              43
    A. Overview of OlG Activity...........................                        6
    B. Significant Internal Audits and                                                APPENDIX IV-SUMMARY OF
       Investigations ..................................................          6   OIG PERFORMANCE DURING
    C. Prevention Activities ....................................                 9   FISCAL YEAR 1990 ...................................................    44




                                                                                                                                                               v
BACKGROUND
The Agency                                                  The Office of Inspector General
The General Services Administration (GSA), estab-           The Office of Inspector General (OIG I was established
lished in 1949 as a central management agency, is the       by the Inspector General Act of 1978 to provide na-
Federal Government's business manager. GSA sets             tionwide audit and investigative coverage of GSA's
Federal policy in such areas as procurement, real prop-     programs and operations. This coverage is intended to
erty management, and telecommunications. The                prevent and detect fraud, waste, and abuse of Govern-
Agency manages diversified operating assets valued at       ment resources and to assist in creating an environ-
more than $8 billion, and is involved in buildings          ment of economy, efficiency, and effectiveness. Since
management, supply activities, real and personal            1985, the OIG has averaged a 9 to 1 investment
property disposal, data processing, and motor vehicle       return-management agreements on audit recom-
and travel management. If compared to private corpo-        mendations to more efficiently use resources and re-
rations, GSA would rank high on the Fortune 500.            cover funds, voluntary recoveries, court-ordered
                                                            recoveries, and investigative recoveries have totaled
GSA activities are very much a part of the basic serv-      almost $1.3 billion.
ices provided to the American public by the Federal
Government. Every person dealing with the Federal           The ongoing OIG focus is directed toward assuring the
Government comes into contact with GSA, through             financial integrity of GSA's procurement activities
telecommunications, visits to Federal buildings, or in-     through prevention programs, audits of contract trans-
formation processed on GSA-procured equipment.              actions, and investigations of instances of wrongdo-
GSA manages 7,000 Federal facilities, operates a fleet      ing. Prevention programs include auditing contract
of 120,000 vehicles, and contracts for $9 billion annu-     proposals so that contracting officers can negotiate
ally in supplies and services for Federal agencies. The     fair agreements based upon accurate pricing informa-
Agency also manages the working environment for ap-         tion, evaluating agency programs so that operations
proximately 1 million Federal employees and leads in        can be efficient and economical, and reviewing pro-
providing child care facilities. Since the August 2 Iraqi   posed regulations and directives so that appropriate
invasion of Kuwait, many GSA employees have                 processing procedures can be established. Audits of
worked tirelessly to provide critical supplies to sup-      contract transactions are aimed at ensuring that the
port the Department of Defense in Operation Desert          Government receives the goods and services con-
Shield.                                                     tracted for at appropriate prices. Investigations are ini-
                                                            tiated, as appropriate, when allegations of wrongdoing
                                                            or improprieties are identified by the OIG or referred
                                                            by others. Investigations serve either to clear individ-
                                                            uals of allegations against them or become the basis
                                                            for criminal, civil, and administrative referrals.




vi
REPORTING REQUIREMENTS

The table below cross-references. the reporting re-                                         in Senate Report No. 96-829 relative to the 1980 Sup-
quirements prescribed by the InspeCtor General Act of                                       plemental Appropriations and Rescission Bill is also
1978, as amended, to the specific pages where they are                                      cross-referenced to the appropriate page of the report.
addressed. The information requested by the Congress



                                                               Source                                                                          Page


     Inspector General Act
      1. Section 4(a)(2)-Review of Legislation and Regulations .......................................                                           10
      2. Section 5(a)(1)-Significant Problems, Abuses, and Deficiencies .................... ..                                                 2,6
      3. Section 5(a)(2)-Recommendations With Respect to Significant
            Problems, Abuses, and Deficiencies .....................................................................                            2,6
      4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ....................... ..                                                   40
      5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities .............................                                              15
      6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information
            Was Refused ...............................................................................................................   None This Period
      7. Section 5(a)(6)-List of Audit Reports ........................................................................                         18
      8. Section 5(a)(7)-Summary of Each Particularly Significant Report ....................                                                   2,6
      9. Section 5(a)(8)-Statistical Tables on Management Decisions on
            Questioned Costs .......................................................................................................             14
     10. Section 5(a)(9)-Statistical Tables on Management Decisions on
            Recommendations That Funds Be Put to Better Use .......................................                                              13
     11. Section 5(a)(1 O)-Summary of Each Audit Report Over 6 Months
            Old for Which No Management Decision Has Been Made ..............................                                             None This Period
     12. Section 5(a)(11 )Description and Explanation for Any Significant
            Revised Management Decision ..............................................................................                    None This Period
     13. Section 5(a)(12)-lnformation on Any Significant Management
            Decisions With Which the Inspector General Disagrees ................................ ..                                      None This Period
     Senate Report No. 96-829
      1. Resolution of Audits ........................................................................................................          12
      2. Delinquent Debts .............................................................................................................         43




                                                                                                                                                             vii
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET

Pursuant to the Inspector General Act of 1978, an Of-             formulate OIG comments on proposed legisla-
fice of Inspector General (OIG) was established within            tion, and work with the Department of Justice
the General Services Administration (GSA) on Octo-                on litigation arising out of OIG activities.
ber 1, 1978. As currently configured, the OIG consists        •   The Office of Administration, a centralized unit
of four offices that function cooperatively to perform
                                                                  that oversees the development of OIG policies,
the missions legislated by the Congress.
                                                                  formulates orG comments on proposed regula-
                                                                  tions and GSA policy issuances, provides data
                                                                  systems support, and handles budgetary, admin-
A. Organization                                                   istrative, and personnel matters.
The OIG utilizes a functional organizational structure
to provide nationwide coverage of GSA programs and
activities. It consists of:                                B. Office Locations
  •   The Office of Audits, a multidisciplinary unit       . The OrG is headquartered in Washington, DC, at
      staffed with financial and technical experts who       GSA's Central Office building. Field audit and investi-
      provide comprehensive coverage of GSA opera-           gations offices are maintained in: Boston, New York,
      tions (internal or management audits) as well as       Philadelphia, Atlanta, Chicago, Kansas City, Fort
      of GSA contractors (external or contract audits).      Worth, San Francisco, and Washington, DC. In addi-
      Headquarters directs and coordinates the audit         tion, the Office of Audits has a resident office in Au-
      program, which is performed by the thirteen            burn, Washington, and the Office of Investigations has
      field audit offices and one resident office.           resident offices in Auburn, Cleveland, and Los
  •   The Office of Investigations, an investigative         Angeles.
      unit that manages a nationwide program to pre-
      vent and detect illegal and! or improper activ-
      ities involving GSA programs, operations, and        C . Staffing and Budget
      personnel. Operations officers at headquarters
      coordinate and oversee the investigative activ-      The OIG's approved Fiscal Year (FY) 1990 budget was
      ity of nine field investigations offices and three   approximately $26.4 million. At the end of FY 1990,
      resident offices.                                    the OIG had obligated $25.8 million or 98 percent of
                                                           its FY 1990 funds.
  •   The Office of Counsel to the Inspector General,
      an in-house legal staff that provides opinions       The OIG started FY 1990 with a total on-board
      and advice on matters under OIG review. These        strength of 423 full-time employees. At the end of the
      attorneys also manage the civil referral system,     Fiscal Year, the OIG's full-time staff totaled 401.




                                                                                                                  1
SECTION ll-PROCUREMENT ACTIVITIES
                                                           carpeting installed in Federal space met contractual
A. Overview of OIG Activity                                requirements relating to smoke density and
                                                           flammabili ty.
This period, OIG audit coverage of GSA's procure-
ment activities primarily focused on contracting ac-
tivities, particularly audits of multiple award            Contractor Integrity Requirements
schedule contracts. We issued 272 contract audit re-
ports recommending that $144 million in funds be put       Federal regulations and standards of conduct require
to better use and questioning costs of $537,916. We        Government employees to conduct business in a man-
also issued a series of internal audit reports that pre-   ner above reproach and to avoid even the appearance of
sented findings in areas such as lease and contract        a conflict of interest. GSA's standards of conduct im-
award and administration, multiple award schedule          pose strict penalties on any GSA employee who solic-
price lists, repair and alteration projects, and quality   its or accepts favors from those doing, or seeking to do,
assurance certifications.                                  business with the Government. The recent move-
Notable OIG investigative cases included one investi-      ment toward contracting out many of the activities
gation, conducted jointly with the Department of the       formerly performed by Federal employees makes it
Interior OIG, that resulted in the false statements con-   imperative that contractor employees also adhere to
viction of the president of a bonding company. The         the standards necessary to both protect the Govern-
president directed a fraud scheme to submit fictitious     ment's interest and uphold the public's trust.
bonding information, thereby exposing the Govern-          An OIG review of the standard construction quality
ment to a substantial risk of loss if contractors failed   manager contract, used to obtain design review and
to perform.                                                construction management services for construction
Another investigation, conducted jointly with the De-      projects, disclosed that the contract did not include a
fense Criminal Investigative Service, resulted in the      standards of conduct clause applicable to contractor
conviction of a construction company owner and his         employees. As a result, GSA cannot ensure that these
wife for conspiracy. The firm submitted falsified bid      employees will maintain the same level of integrity
bond documents to the Government.                          required of Federal employees.
Additional OrG audit and investigative work resulted       In one case, an examination of a construction contrac-
in six civil fraud settlements valued at $1,280,817 and    tor's expense vouchers showed that this contractor
a civil judgment valued at $5,266,878.                     had entertained a construction quality manager em-
                                                           ployee on four occasions during a 6-month period.
                                                           The employee, a project manager in a position of trust,
                                                           had responsibility for overseeing the construction
                                                           contractor's work, including reviewing claims sub-
                                                           mitted by the contractor and reporting safety deficien-
B. Significant Audits and                                  cies. We believe that a quality manager's ability to
                                                           properly maintain objectivity, and make the Govern-
   Investigations                                          ment's interest the foremost consideration, can be
                                                           compromised by the acceptance of, or even the appear-
                                                           ance of having accepted, favors from a contractor,
$800,000 in Civil Settlements                              such as entertainment.
During June 1990, the Government entered into two          The May 24,1990 report recommended that the Com-
civil settlement agreements, totaling $800,000, with       missioner, Public Buildings Service, have the Office of
Federal suppliers. Under the terms of the first agree-     Procurement:
ment, an ADP equipment firm agreed to pay the Gov-
                                                             •   Develop, and include in construction quality
ernment $400,000 to settle its civil liability. This
agreement stemmed from a joint OIC audit and inves-              manager contracts, clauses that require contrac-
tigation which disclosed that the firm supplied incom-           tor employee adherence to the same personal
plete and inaccurate pricing data to GSA contracting             integrity standards as GSA employees and
                                                                 that specify penalties for violations of these
officials. The contracting officer relied upon these
data when negotiating a contract and, as a result,               standards.
prices were inflated.                                        •   Determine whether other service contracts
The second agreement provided that a carpet supplier             should contain similar clauses and, where ap-
                                                                 propriate, include the clauses.
would pay the Government $400,000, as well as re-
place any installed, defective carpeting at the Govern-    The orG was provided responsive action plans for im-
ment's request. This agreement resulted from the           plementing the report recommendations. A manage-
company's disclosure that it had falsely certified that    ment decision was achieved on July 24, 1990.


2
$5.3 Million Civil Judgment                                  Conspiracy Convictions
In our last Report to the Congress, we reported that a
U. S. District Court had entered a $5.6 million civil        On May 27, 1990, the owner of a construction firm
judgment against a partitions supply firm. OIG re-           and his wife, who was a company official, were sen-
views disclosed that the firm had defrauded the Gov-         tenced in a U. S. District Court after being convicted
ernment by selling partitions to Federal agencies that       of conspiracy, mail fraud, and submitting false state-
contained cheap, flammable cardboard filler rather           ments. The owner was sentenced to 30 months in
than the fire retardant material specified in its GSA        prison, followed by 36 months probation. His wife
contract. At that time, we reported that civil action        was sentenced to 15 months in prison and 36 months
against the company's president was pending.                 probation.

On May 30, 1990, a U. S. District Court entered a            The sentences resulted from a joint GSA OIG and De-
$5.3 million civil judgment against the firm's presi-        fense Criminal Investigative Service investigation ini-
dent. The court found that he had defrauded the Gov-         tiated after a GSA official informed the OIG that GSA
ernment through his participation in a conspiracy to         could not locate the bank at which the company
falsify test results and provide unsafe partitions. The      claimed it had a line of credit. The investigators deter-
total civil judgment amount resulting from the OIG           mined that bid documentation the company submit-
reviews was therefore $10.9 million.                         ted to both GSA and the Department of Defense to
                                                             obtain construction contracts included a letter of
                                                             credit, signed by a fictitious person, from a non-
False Statements Conviction                                  existent bank. The bid also falsely certified that no
                                                             company official was facing any criminal charges
On May 3, 1990, the president of a bonding company           when, in fact, the owner had been charged with
was sentenced in U. S. District Court after pleading         forgery.
guilty to three counts of making false statements in
order to defraud the Government. He was sentenced            GSA relied upon the accuracy of this information to
to 5 years in prison on each count, with the sentences       award the company a contract. When the company
to be served concurrently.                                   could not perform, the contract had to be terminated.
                                                             As a result of the defendants' actions, the Government
The sentencing resulted from a joint investigation           incurred $28,690 in reprocurement costs to secure a
conducted by the GSA and Department of the Interior          new contractor.
OIGs. The investigation, initiated after a GSA officiaI
alleged that the company had submitted fraudulent            The company and the owner were debarred by GSA
bonding documents to the Government, disclosed               from conducting business with the Government, and
that the company president had directed a fraud              debarment action is pending against the owner's wife.
scheme to submit fictitious bonding information.
This information was submitted in support of 37 Fed-         Multiple Award Schedule Price Lists
eral construction contracts nationwide, with a total
value of approximately $15 million.                          GSA's Multiple Award Schedule (MAS) Program gen-
Federal construction contracts require construction          erates significant savings to the Government on pur-
contractors to secure performance bonds prior to ob-         chases of common-use items for which customer
taining contracts. These bonds are normally obtained         agencies do not have unique product specifications.
from a bonding surety firm and guarantee that work           These savings result from the fact that firms seeking a
                                                             MAS contract offer discounts off commercial price
will be performed if the contractor fails to complete
the project. The bonding firm, which collects from 3         lists, thereby facilitating straightforward price com-
to 5 percent of the contract's value from a contractor       parisons. MAS contractors are required to submit to
                                                             GSA published price lists that reflect awarded prices.
as its fee, must have assets available to cover the full
value of the bond.                                           These price lists are approved for distribution to Gov-
                                                             ernment customers.
Extensive review of the bonding company's property
and financial records revealed that the firm pledged         This period, the OIG completed an evaluation of MAS
assets it did not own and overstated the value of its        price lists used for 239 contracts, managed by the Au-
actual assets. Therefore, the Government was ex-             tomotive Commodity Center and the Tools Commod-
posed to a substantial risk of loss if a contractor failed   ity Center, with an estimated value of $55.6 million.
to perform.                                                  A sample review of 30 of these contracts disclosed that
                                                             GSA contracting personnel did not always review the
Previously, the company vice-president and another           contractor-prepared price lists sent to Federal agen-
individual who participated in the scheme had pled           cies. As a result, price lists did not always contain the
guilty' to conspiracy to defraud. They were scntenced        contracted for items, and some contract terms and
to prison terms of 1 year and 6 months, respectivcly. In     conditions were omitted. Since customer agencies
addition, the company and all three defendants were          rely upon the accuracy of the price lists to determine
suspended from Government contracting, with debar-           what items to purchase, Federal purchasers may be
ment action pending.                                         paying prices above the contracted amount.


                                                                                                                    3
The May 31, 1990 report directed four recommenda-           The OIG evaluated discount schedule and marketing
tions to the Commissioner, Federal Supply Service,          data submitted in response to four GSA solicitations:
including:                                                  two for general purpose ADP equipment and software;
                                                            one for microfilming services; and the other for copy-
    •   Assure that GSA price lists are reviewed for ac-
                                                            ing equipment. The first audit report advised the con-
        curacy prior to distribution to customer
                                                            tracting officer that the firm's proposal did not fully
        agencies.
                                                            disclose the magnitude of pricing concessions offered
    •   Obtain refunds from those contractors who dis-      to commercial customers. We further advised that
        tributed inaccurate price lists to customer         combined discounts and allowances granted commer-
        agencies..                                          cial customers resulted in lower net prices than those
                                                            offered the Government. Finally, the preponderance of
The Commissioner provided responsive action plans           allowances granted to commercial customers may in-
for implementing the report recommendations. A              validate the use of the established catalog prices in-
management decision was achieved on August 28,              cluded in the firm's offer as the basis for the pricing
1990.                                                       proposal, thereby requiring the contractor to submit
                                                            cost or pricing data instead. The second audit report
Advertising Firm Owner Convicted                            advised the contracting officer that the firm did not
                                                            fully disclose the extent of discounts granted to vol-
On September 28, 1990, the owner of an advertising          ume end users, and that these discounts exceeded
company was sentenced in a U. S. District Court after       those offered to GSA. We also advised that, in our
being convicted for his part in a fraudulent scheme         opinion, the firm's rationale for not offering GSA dis-
that caused the Government to overpay the firm for          counts equal to those given customers with nonstan-
services not performed. He was sentenced to 3 years         dard end user agreements was not valid. The third
probation and ordered to make restitution in the            audit report advised the contracting officer that the
amount of $48,858.                                          firm did not disclose price protection plans that result
                                                            in lower net prices to corporate customers. We also ad-
The conviction stemmed from an OIG investigation            vised that the cost data the firm submitted for non-
initiated after a GSA official alleged that the advertis-   commercial items was not accurate, current, and
ing company overbilled the Government. Under the            complete. The fourth report advised the contracting
terms of the firm's GSA contract, the company placed        officer that commercial and state and local govern-
advertisements on behalf of GSA in various news-            ment customers were offered discounts and other pric-
papers. The newspapers billed the advertising com-          ing concessions that exceeded those disclosed and
pany directly; the company then billed GSA.                 offered to GSA. Based on these findings, the auditors
OIG investigators obtained copies of the actual             recommended that $62.4 million in funds be put to
amounts newspapers charged the firm and compared            better use.
them to invoices the company submitted to GSA for
these services. The analysis disclosed that the com-
pany had inflated costs and charged for services not ac-    Other Contracts
tually performed. GSA relied upon these fraudulent
invoices and, as a result, paid the firm an inflated        The OIG performed three significant audits involving
amount for the advertising services.                        solicitations for guard services and architect and engi-
                                                            neering services. Details on the three audits, with a

c.      Significant Preaward Audits
                                                            total proposed value of over $1l.5 million, are as
                                                            follows:

The ~iG's preaward audit program provides infor-              •   An OIG evaluation of a pricing proposal submit-
mation to contracting officers for use in negotiating             ted in response to a GSA solicitation for security
contracts. The pre-decisional, advisory nature of pre-            guard services at a Federal facility found that
award audits distinguishes them from other audits.                costs contained in the contractor's proposal
This period, the OIG performed preaward audits of                 were overstated or unsupported. Based on these
254 contracts with an estimated value of $3 billion.              findings, we recommended adjustments total-
The audit reports contained almost $144 million in fi-            ing $2 million in the following categories: pro-
nancial recommendations.                                          ductive labor, supervisory labor, health and
                                                                  welfare, taxes and insurance, equipment, and
                                                                  general and administrative expenses.
                                                              •   At the request of a Regional Administrator, the
Multiple Award Schedule Contracts                                 OIG evaluated a pricing proposal submitted in
                                                                  response to a GSA solicitation for design serv-
The OIG performed four significant audits involving               ices related to renovation work at a Federal
multiple award schedule contracts. Total estimated                building. The audit report advised the contract-
Government-wide sales under these contracts were                  ing officer that costs contained in the architect
$774 million.                                                     and engineering firm's proposal were overstated

4
     or unallowable, and recommended a $l.9 mil-         modernization of a Federal building. The audit
     lion reduction in the contract price. The adjust-   report advised the contracting officer that prices
     ments were in the following categories: direct      contained in the proposal for direct labor, other
     labor, consultants, space layout, general and ad-   direct costs, and overhead were overstated or
     ministrative expenses, profit, and commissions.     unsupported. The auditors recommended cost
                                                         reductions of almost $l.3 million to the pro-
4»   The OIG evaluated a pricing proposal submitted      posed contract prices.
     for architectural design services related to the




                                                                                                          5
 SECTION m-AGENCY OPERATIONS
A. Overview of DIG Activity                               possibility of, as well as their responsibilities upon,
                                                          encountering asbestos during renovation projects.
This period, OIG internal management reviews pre-         The May 11, 1990 report directed six recommenda-
sented findings relative to health and safety concerns,   tions to the Regional Administrator. These included
rent collection, buildings management, vacant space,      recommendations that:
rent exemptions, supply center operations, donated
property, employee relocations, fleet management            •   Steps be taken to ensure that detailed site in-
centers, billing procedures, and accounts receivable            spections are performed prior to contracting
operations. Some of the more significant reviews as-            for renovation services in GSA-controlled
sisted management in taking action relative to:                 bUildings.
    •   Identifying and controlling asbestos-containing     •   Guidance be provided on required documenta-
        materials during renovation projects.                   tion for asbestos abatement projects and pro-
                                                                cedures be established to ensure receipt of
    •   Backcharging tenant agencies for space that             required documentation from contractors.
        they occupied rent-free.
                                                            •  GSA specifications on asbestos abatement pro-
    •   Providing a safe and healthful environment for         cedures be included in all renovation contracts
        .employees at a supply distribution facility.          for buildings known or suspected to contain
    •   Improving controls over the GSA rent exemp-            asbestos.
        tion process.                                     The Regional Administrator agreed with the recom-
                                                          mendations in the draft report. We are awaiting man-
An OIG investigation resulted in the conviction of a      agement decisions on these recommendations.
former GSA automotive repair inspector for mail
fraud. The inspector fraudulently obtained money          Rental Payments
through the misuse of U. S. Government credit cards.
                                                          This period, the OIG completed a regional review of
                                                          controls over lease payments. The region has a lease
B. Significant Internal Audits                            inventory of 565 buildings, with annual rental pay-
                                                          ments of approximately $108 million.
   and Investigations                                     The review found that, while the regional Real Estate
Controls Over Asbestos                                    Division was taking actions to improve its operations
                                                          and controls over lease payments, additional efforts
An OIG review of one GSA region's effectiveness in        were necessary in several areas. For example, the OIG
controlling health hazards associated with asbestos       identified seven leases for which GSA paid lessors
disclosed that the region was not complying with GSA      $3.7 million without collecting rent from the tenant
asbestos abatement regulations. The review identified     agencies. We found that regional officials had not pro-
significant problems with the identification and con-     cessed the documents necessary to initiate billings to
trol of asbestos-containing materials.                    these agencies, nor had they utilized the available con-
                                                          trol documents for identifying buildings where ten-
We found that required site inspections to identify       ants were not charged for occupied space.
building areas that contained, or might contain,
asbestos-contaminated materials were not always per-      We also found that required acceptance inspections
formed prior to initiating building renovation proj-      had not always been performed prior to accepting
ects. Therefore, GSA contractors have unexpectedly        space and authorizing rent payments to lessors. With-
encountered asbestos during repair and alteration         out the performance of these inspections, GSA had no
work. GSA incurred higher costs for abatement ac-         assurance that the space provided was in compliance
tions in those instances when the asbestos abatement      with leasing terms and conditions, nor that the Gov-
work had to be performed by the renovation contrac-       ernment had obtained all credits due from lessors.
tor under a sole source procurement. In addition, GSA
has been exposed to potential costly contractor claims    The June 7, 1990 report directed nine recommenda-
for construction delays.                                  tions to the Assistant Regional Administrator, Public
                                                          Buildings Service, to correct identified deficiencies.
We also found improper maintenance of documenta-          These included recommendations that the Director,
tion supporting contractor asbestos abatement and         Real Estate Division:
disposal actions. Without proper documentation,             • Backcharge tenant agencies for space that they
GSA has no assurance that contractors performed the             occupied rent-free, and, in the future, bill these
required abatement actions. Further, some contracts             agencies for space actually occupied.
for renovation projects did not incorporate the re-
quired specifications for asbestos abatement and dis-       •   Establish procedures to review appropriate doc-
posal. To minimize the potential problems associated            uments monthly, thereby assuring that tenant
with asbestos, GSA should apprise contractors of the            agencies are charged for space occupied.
6
  •   Establish procedures to ensure that acceptance        type of space assigned to tenant agencies was not in
      inspections are performed before lease pay-           agreement with the actual status of the space in the
      ments are authorized, and resolve differences         buildings. As a result, agencies occupied space with-
      due under the leases reviewed.                        out paying rent, and GSA was not aware that vacant
                                                            space, already under lease, was available for use.
The Regional Administrator concurred with the rec-
ommendations in the draft report. We are awaiting           We found, for example, that several agencies were oc-
management decisions on the recommendations.                cupying over 64,000 square feet of leased space, with
                                                            an annual rental value of almost $1.3 million. How-
Employee Safety at Distribution Center                      eve'r, since this space was listed as vacant, GSA was
                                                            not charging the tenant agencies for its use. In addi-
An OIG review at a wholesale distribution center con-
                                                            tion, one agency was not billed $3.2 million for space
cluded that the center did not provide a safe and
                                                            occupied from 1987 to 1989 because the space had not
healthful work environment for its employees. These
                                                            been properly assigned to that agency.
employees were subjected to potential exposure to
hazardous materials and waste that could result in          We also found that the region classified almost
health problems for which the Government may be             173,000 square feet of space as being committed to
liable.                                                     agencies although there was no documentation sup-
                                                            porting such a commitment, or changing circum-
We found that the center did not control access to the
                                                            stances had eliminated the reason for the initial
areas where hazardous materials and waste were
                                                            commitment. Consequently, GSA might lease addi-
stored and did not store hazardous materials in the
                                                            tional space even though existing vacant space was
proper manner. In addition, flammable storage and           available.
waste handling areas were not properly designed to al-
low for safe storage. Further, the center did not provide   The April 23, 1990 report recommended that the As-
adequate medical surveillance of its employees, expo-       sistant Regional Administrator, Public Buildings Serv-
sure records were not maintained, and employees             ice, have the Real Estate Division:
were not provided with required right-to-know infor-
mation about potential exposure to hazardous mate-            •   Correct the inaccurate assignment records iden-
rials. We determined that the absence of current                  tified and, where appropriate, bill agencies for
contingency and communications plans, along with                  space occupied rent-free.
the need for a training program for safety and health         •   Ensure that space assignments are properly doc-
monitoring, were the primary causes of these                      umented and require realty specialists to recon-
problems.                                                         cile building drawings and computer-generated
The September 28, 1990 report addressed 1 recom-                  reports whenever space assignments are
mendation to the Regional Administrator and 14 rec-               changed.
ommendations to the Assistant Regional Admin-                 •   Ensure that space commitments are supported
istrator, Federal Supply Service. These included rec-             by an approved request for space and peri-
ommendations to:                                                  odically reviewed to determine whether these
  •   Develop and implement a contingency plan and                commitments remain valid.
      a comprehensive written hazardous materials           The Regional Administrator provided responsive ac-
      communications program.                               tion plans for implementing the report recommenda-
  •   Consider providing a separate building for haz-       tions. A management decision was achieved on
      ardous material storage and handling.                 July 19, 1990.
  •   Prohibit general storage in the flammable room
      and control access to the hazardous material          Fraud Conviction
      storage area.                                         On June 12, 1990, a former GSA automotive equip-
  •   Develop an employee health plan and maintain          ment repair inspector was sentenced in aU. S. District
      employee exposure records, provide right-to-          Court after pleading guilty to mail fraud in connection
      know training to employees, and establish a           with a scheme to defraud the Government via use of
      training program for safety and health                U. S. Government credit cards. He was sentenced to
      monitoring.                                           4 years probation, 3 months of community detention,
                                                            and 3 months of house detention, as well as ordered to
The Regional Administrator generally concurred              make restitution of $25,395.
with the recommendations in the draft report. We
are awaiting management decisions on the                    The sentence resulted from an OIG investigation ini-
recommendations.                                            tiated after receipt of an allegation from a GSA official.
                                                            The official alleged that the subject admitted to falsi-
                                                            fying U. S. Government credit card receipts.
Vacant Space Management
                                                            The investigation found that the inspector removed
An OIG review of the regional management of vacant          credit cards from the GSA motor pool office where he
space in GSA-controlled buildings disclosed that the        was employed, took these credit cards to a service sta-
computer-generated report that lists the amount and         tion where he worked, and made 622 bogus purchases.
                                                                                                                    7
During the course of the investigation, the employee        We are awaiting management decisions on the report
resigned his GSA position.                                  recommendations.
Rent Exemptions
The Federal Property and Administrative Services Act
of 1949, as amended, requires that GSA charge rent, at      Employee Relocations
rates approximating commercial charges, for space,
services, maintenance, etc., furnished to Federal agen-     Section 118 of Public Law 98-151 included amend-
cies. An exception to this policy allows the Adminis-       ments to the Administrative Expenses Act of 1946
trator, GSA, or, through a delegation of authority, the     that, among other things, increased employee reloca-
Commissioner, Public Buildings Service, to exempt           tion allowances for home sale and purchase expenses,
rental charges when deemed infeasible or impractica1.       temporary quarters, and storage of household goods. It
                                                            also included a provision authorizing Federal agencies
An OIG review of 41 rent exemptions granted by GSA          to contract for relocation services, including arranging
disclosed that six exemptions, involving over 105,000       for the purchase of a transferred employee's residence.
square feet of space with an estimated rental income
of almost $1.3 million, were not adequately justified.      As part of a President's Council on Integrity and Effi-
Four of the six were granted even though the Congress       ciency review, the OIG evaluated GSA's practices and
had appropriated funds to cover rental costs, and GSA       procedures for relocating agency employees. The re-
had denied exemptions under similar circumstances           view, consisting of evaluations of the 81 relocations
to other agencies. One exemption had no documenta-          completed during the period reviewed, identified the
tion and was found to have been granted by mistake,         need for GSA to establish a centralized relocation
and the other exemption was based on unclear and in-        management function to develop employee relocation
complete documentation.                                     policies and procedures. This function would reduce
                                                            employee relocation costs, provide employees with
Of the remaining 35 exemptions, five were properly          the information needed to make better decisions re-
supported and in compliance with applicable laws and        garding the sale of their homes, and alleviate the over-
regulations, while eighteen were unnecessary since          all stress associated with relocations.
there was no current or anticipated space assign-
ments. For the remaining twelve buildings, no exemp-        We found that 46 percent of relocated employees chose
tions were actually granted.                                the most costly option to the Government for selling
                                                            their homes, the appraised value method, even though
The OIG believes that better management and control         this method could have resulted in the employees re-
of rent exemptions could have prevented these prob-         ceiving less equity from the sales of their residences.
lems. We found that GSA had not formalized written          In addition, we found that improved policies relating
policies and procedures for granting or denying rent        to house hunting trips could reduce relocation costs,
exemption requests; did not periodically verify the         especially those involving temporary quarters and
need for, and validity of, rent exemptions; and did not     temporary storage, as well as provide employees with
maintain a central repository of documentation sup-         less stressful moves. Improvements in the controls
porting the granting or denying of rent exemptions.         over home selling, temporary quarters, and temporary
Such controls would provide consistency in the rent         storage costs are particularly important since these
exemption process and enable GSA to identify build-         costs represented 65 percent of the total relocation
ings no longer requiring rent exemptions.                   costs reviewed.
The May 31, 1990 report directed eight recommenda-          The April 9, 1990 report recommended that the
tions to the Commissioner, Public Buildings Service,        Comptroller establish a centralized relocation man-
to correct identified deficiencies. These included rec-     agement function with the authority and responsibil-
ommendations that the Controller, Public Buildings          ity for developing and ensuring compliance with em-
Service:                                                    ployee relocation practices and procedures; providing
    •   Issue a billing for rent exemptions granted with-   employees with information, guidance, and assis-
        out adequate justification, and reevaluate the      tance; monitoring relocation costs; administering re-
        exemption based on unclear and incomplete           location services contracts; and recommending
        documentation.                                      additions, deletions, and changes in the services cov-
                                                            ered by relocation services contracts.
    •   Ensure that exemptions associated with agen-
        cies and/or buildings having no current rental      The OIG was provided responsive action plans for im-
        activity be removed from the billing system.        plementing the report recommendations. A manage-
                                                            ment decision was achieved on July 12, 1990. On
    •   Develop written policies and procedures for car-    August 7, 1990, the Comptroller issued a memoran-
        rying out the granting of rent exemptions, peri-    dum to GSA Central Office and regional management
        odically review and recertify the need for and      officials that implemented policy changes for em-
        validity of all exemptions, and establish and       ployee relocations, including the establishment of a
        maintain a central repository of documentation      centralized relocation manager in the Office of Fi-
        supporting rent exemptions.                         nance.


8
Non-Federal Receivables                                     The program achieved the following results during the
                                                            reporting period:
The OIG evaluated a GSA regional finance division's           Lease proposals submitted for review........... 54
controls over nationwide collection actions for non-          Lease proposals reviewed ......... .................. ....... 31
Federal accounts receivable. The review concluded             Lease proposals with deficiencies ................... 22
that improvements were needed in the timeliness of            Lease proposals with no deficiencies .............             9
collection actions, the accuracy of accounting records,
and the processing of claims related to GSA supply          Major deficiencies identified through OIG advisory
purchases.                                                  lease reviews related to: GSA's waiver of rights to take
                                                            legal action against the lessor, and of rent reduction or
We found that collection actions for delinquent cus-        termination rights; agreement on a fixed rent start
tomers did not adhere to established procedures. For        date without a guarantee that space would be available
example, for 34 percent of the debts reviewed, demand       for occupancy; the financial capability of the lessor;
letters were not sent to delinquent customers andlor        and the possible restriction of competition due to the
the delinquent accounts were not turned over to col-        limited time allowed offerors to submit offers. Other
lection agencies within prescribed timeframes. De-          deficiencies included: incomplete le:;tse files; no docu-
lays in taking collection actions reduce the potential      mentation of the tenant agency's space needs; incom-
for successful collection of the total debt.                plete documentation of market survey; overlapping
We also found that some debts were not recorded as          lease clauses; and incorrect calculations comparing
receivables in GSA's accounting records. These in-          proposed rent with the appraisal.
cluded both principal amounts and late payment
charges due the Government. We further noted that           Integrity Awareness
the procedures for writing off small dollar claims
against Federal suppliers required substantial time         Integrity Awareness Briefings comprise the OIG's pri-
and effort, even though little action is taken to collect   mary vehicle for educating employees on their respon-
claims that are for less than $100.                         sibilities for the prevention of fraud and abuse, and for
                                                            reinforcing employees' roles in helping to ensure the
Our August 20, 1990 report recommended that the             integrity of Agency operations. These briefings ex-
Acting Assistant Regional Administrator for Adminis-        plain the statutory mission of the OIG and the meth-
tration require that finance division officials:            ods available for reporting suspected instances of
                                                            wrongdoing. In addition, through case studies and
  •   Establish controls to ensure that collection ac-      slides, the briefings expose GSA employees to actual
      tions are in accordance with prescribed               instances of white collar crime in GSA and other Fed-
      timeframes.                                           eral agencies. This period, we presented 39 briefings
                                                            which were \lttended by 916 Central Office and region-
  •   Develop procedures to ensure that non-Federal         al employees.
      debt amounts are accurately recorded.
  •   Develop controls to preclude improper write-           Hotline
      offs of small dollar claims, then grant write-off
      authority to the regional accounts payable             The Hotline is an essential part of our prevention pro-
      branch.                                                gram. It provides an avenue for concerned employees
                                                             to report suspected wrongdoing. Hotline posters lo-
                                                             cated in GSA-controlled buildings as well as Hotline
The Regional Administrator concurred with the in-
                                                             brochures encourage employees to use the Hotline.
tent of the recommendations in the draft report. We
are awaiting management decisions on these                   During this reporting period, we received 33 Hotline
recommendations.                                             calls and letters. Of these, 26 complaints warranted
                                                             further action. We also received 1 referral from GAO
                                                             and 4 referrals from other agencies; all of these refer-
                                                             rals required further action.
c.    Prevention Activities                                 Implementation Reviews
Advisory Lease Reviews                                      The OIG performs independent reviews of implemen-
                                                            tation actions, on a test basis, to ensure that corrective
The OIG's program for reviewing leases prior to award       actions are being accomplished according to estab-
provides front-end assurance that GSA is adhering to        lished milestones. This period, the OIG performed
regulations and procedures before awarding selected         19 implementation reviews. In 17 of these cases,
leases involving annual rentals in excess of $400,000.      management was successfully implementing the
The reviews, although advisory in nature, promote           recommendations. In the other 2 instances, recom-
opportunities for economy and efficiency in the leas-       mendations were not being implemented in accor-
ing area, and the avoidance of problems before they         dance with the established action plans; we advised
occur.                                                      management of the need to revise the action plans.


                                                                                                                                 9
SECTION IV-REVIEW OF LEGISLATION AND
REGULATIONS
A. Legislation/Regulations                                        Claims Court upon application by the Attorney
                                                                  General or his designee.
   Reviewed                                                   •   H. R. 5331, the National Advisory Committee
During this period, the OIG reviewed 281 legislative              for the Review of Federal Excess and Surplus
matters and 92 proposed regulations and directives.               Property. We opposed the establishment of this
                                                                  advisory committee since we believe that the
                                                                  committee is not structured to address problems
B. Significant Comments                                           we have identified with the Surplus Personal
                                                                  Property Program, especially the difficulty in
                                                                  preventing fraud in the operation of the pro-
The OIG provided significant comments on the fol-
lowing legislation, regulations, orders, and directives:          gram. The questions to be addressed by the com-
                                                                  mittee appear to be aimed at discovering the
     •   H. R. 4794, Title II, the Commercial Products            best way to get more surplus property into the
         Acquisition Act of 1990 and Revised S. 1957, the         hands of the states rather than focusing on how
         Nondevelopmental Items Acquisition Act of                the present program is operating, whether con-
          1990. We opposed enactment of these bills, in-          trols ensure that the states are benefiting from
         tended to streamline purchasing by Federal ci-           the donated property, and whether fraudulent
         vilian agencies and create a new type of                 use of the property is, or can be, kept at a mini-
         Government procurement intended to be free               mum. We feel that any studies should consider
         from over-specification and unnecessary con-             whether alternatives to the program, such as
         tract terms, since neither appears to contain ad-        selling the property, might have merit. We noted
         equate protection against fraud, and may                 that work being performed by the GSA OIG will
         eliminate some existing protections. We were             provide better insight into the workings of the
         especially concerned that a proposed subsection          program and suggested that it would be more
         in the House bill would exempt the new class of          prudent to await the outcome of this work be-
         contracts from other requirements of law where           fore expending scarce resources on an advisory
         such requirements are not equally applicable
                              /I                                  committee.
         to contracts to which the United States Govern-
         ment is not a party." We expressed reservations      •   H. R. 5071, the Federal Triangle Development
         that many of the Government's criminal, civil,           Act Amendments of 1990. We opposed this bill
         and administrative remedies for fraudulent               since it appeared that the primary purpose of the
         practices would be seriously jeopardized to the          amendments was to remove the limitations on
         extent that existing certification requirements          the International Culture and Trade Center
         are encompassed by this exemption. We also               Commission's expenditures and to increase its
         noted that, while we supported the attempt to            funding. We felt that these changes would de-
         eliminate the requirement for full cost and pric-        crease the Commission's accountability for its
         ing disclosure where appropriate, we were con-           expenditures and remove any incentive to mini-
         cerned that it would mean a loss in our ability to       mize costs. We suggested that a separate appro-
         obtain certifications of discount schedules and          priation for the Commission would be more
         pricing data. We suggested that, given the his-          appropriate. We expressed reservations about
         tory of past abuses, the Government preserve re-         those provisions that set a cap on the rent to be
         medies for fraud, false claims, and defective            paid GSA by the Commission, that authorize
         pricing. These remedies are largely dependent            the Commission alone to estimate the reserves
         upon clear disclosure obligations and contrac-           necessary to meet future costs, and that remove
         tors' certifications.                                    the cap on the Commission's space allocation.
                                                                  We commented that these provisions could re-
 •       Draft Bill No. 134, the Federal Courts Improve-          sult in GSA underwriting certain of the Com-
         ment Act and Contract Disputes Act Amend-                mission's expenses and that, since GSA is the
         ments of 1990. We supported this bill since it           guarantor for any lease payments, the GSA Ad-
         would clarify certain jurisdictional issues that         ministrator should have final authority to deter-
         have arisen in connection with cases brought             mine what space allocations would ensure cost
         under the Contract Disputes Act, but which in-           effectiveness.
         volve fraud. We strongly supported Section
         202(3), requiring agency boards to stay proceed-     •   H. R. 3404, the Systematic Approach for Value
         ings upon application by the Attorney General            Engineering Act. We supported this bill. We be-
         or his designee, and Section 205(3), reserving ju-       lieve that value engineering reviews can be ben-
         risdiction of cases involving fraud to the U. S.         eficial for certain types of contracts. We did

10
     note, however, that GSA would have to be pro-         it would provide standardization in Federal ver-
     vided with sufficient resources to enable it to ad-   sus state jurisdiction issues on Federal lands. We
     equately support a value engineering review           noted that a Department of Justice report had
     program.                                              characterized the present situation as a patch-
                                                           work of jurisdictions, often within the same par-
                                                           cel of Federal land, and further noted the
4&   Draft Bill No. 123, the State Criminal Jurisdic-      difficulty of determining which law governs a
     tion Act of 1990. We supported this bill because      particular action occurring on Federal property.




                                                                                                          11
SECTION V-STATISTICAL SUMMARY OF OIG
ACCOMPLISHMENTS
A. Overview of OIG Activities                                                         funds be put to better use were applicable to funds
                                                                                      other agencies would expend under GSA's
During the reporting period, the OIG pursued 1,376                                    Government-wide contracts.
audit and investigative assignments. This activity re-
sulted in the issuance of 392 audit reports and the re-
ferral of 308 investigative findings to prosecutive
authorities or GSA management.                                                        2. Management Decisions on Audit
The following subsection presents information on                                         Reports
these and other quantifiable accomplishments.
                                                                                     Table 1 summarizes the status of the universe of
                                                                                     audits requiring management decisions during this
B. Summary Statistics                                                                period, as well as the status of those audits as of Sep-
                                                                                     tember 30, 1990. Twenty-two reports more than
                                                                                     6 months old were awaiting management decisions as
1. Audit Reports Issued                                                              of September 30, 1990; but all of them were preaward
                                                                                     audits, which are not subject to the 6-month manage-
The OIG issued 392 audit reports, including 2 audits                                 ment decision requirement. Thus, no reports were ac-
performed by the OIG that were issued to other agen-                                 tually overdue-a statistic that reflects creditably on
cies and 9 audits performed for the OIG by another                                   GSA's management decision process.
agency. The 392 reports contained financial rec-
ommendations totaling $149,585,120, including                                        It should be noted that Table 1 does not include 2 re-
$143,974,149 in recommendations that funds be put                                    ports issued to other agencies this period and 55 re-
to better use and $5,610,971 in questioned costs. Due                                ports (1 issued this period) excluded from the
to GSA's mission of procuring supplies and services for                              management decision process because they pertain to
the Government, most of the recommendations that                                     ongoing investigations.



                                           Table 1. Management Decisions on OIG Audits
                                                                                               Reports With
                                                                                   No. of        Financial           Total Financial
                                                                                  Reports    Recommendations        Recommendations

     For which no management decision
       had been made as of 4/1/90
       - Less than 6 months old ............................... .                  183              129                $ 65,104,766
       - More than 6 months old ............................... .                   29               28                  13,568,366
     Reports issued this period ....................................               389              217                 149,585,120

     TOTAL ....................................................................    601              374                $228,258,252

     For which a management decision
       was made during the reporting period
       - Issued prior periods .................................... ..               190             136                $ 68,486,754
       - Issued current period ....................................                 211              99                  55,612,616

     TOTAL ....................................................................     401             235                $124,099,370

     For which no management decision
       had been made as of 9/30/90
       - Less than 6 months old ................................                    178              118               $ 93,972,504
       - More than 6 months old .............................. ..                    22               21                 10,186,378

     TOTAL ....................................................................     200              139               $104,158,882




12
3. Management Decisions on Audit                                                                    Tables 2. and 3 present the audits identified in Table 1
                                                                                                    as containing financial recommendations by category
   Reports With Financial                                                                           (funds to be put to better use or questioned costs).
   Recommendations                                                                                  Some of the reports contained recommendations that
                                                                                                    funds be put to better use as well as questioned costs,
                                                                                                    and these reports are therefore included in both Tables
                                                                                                    2. and 3.




                                      Table 2. Management Decisions on OIG Audits With
                                      Recommendations That Funds Be Put to Better Use
                                                                                                                     No. of            Financial
                                                                                                                    Reports        Recommendations

   For which no management decision
     had been made as of 4/1/90
     - Less than 6 months old ....................................................................                    111             $ 63,537,266
     - More than 6 months old ...................................................................                      23                8,333,662
   Reports issued this period .......................................................................                 197              143,974,149

   TOTAL ........................................................................................................    331              $215,845,077

   For which a management decision was
     made during the reporting period
     - recommendations agreed to by
        management based on proposed
        - management action ....................................................................                                      $ 99,084,634
        - legislative action ....................................................................... ..
     - recommendations not agreed to
        by management .............................................................................. .                                  19,824,650

   TOTAL ........................................................................................................    202              $118,909,284 •

   For which no management decision
     had been made as of 9/30/90
     - Less than 6 months old .................................................................. .                    108             $ 88,494,578
     - More than 6 months old ...................................................................                      21                9,504,217

   TOTAL ........................................................................................................     129             $ 97,998,795

   * Includes $1,063,002 that management decided to seek that exceeded recommended amounts.




                                                                                                                                                          13
                                                           Table 3. Management Decisions on
                                                           OIG Audits With Questioned Costs
                                                                                                       No. of                   Questioned              Unsupported
                                                                                                      Reports                     Costs                    Costs

     For which no management decision
       had been made as of 4/1/90
       - Less than 6 months old ............................................. .                            26                   $ 1,567,500               $   -
       - More than 6 months old ............................................ .                                 5                  5,234,704
     Reports issued this period ................................................. .                        20                     5,610,971

     TOTAL ..................................................................................             51                    $12,413,175              $    -

     For which a management decision was
       made during the reporting period
       - disallowed costs ....................................................... ..                                            $ 1,316,570'             $    -
       - costs not disallowed ................................................. ..                                                5,003,574

     TOTAL ..................................................................................             39                    $ 6,320,144**            $    -

     For which no management decision
       had been made as of 9/30/90
       - Less than 6 months old ............................................ ..                            10                   $ 5,477,926              $    -
       - More than 6 months old ........................................... ..                              2                       682,161

     TOTAL ..................................................................................              12                   $ 6,160,087              $    -

     • Includes $627,500 also reported under Monetary Results.
     * * Includes $67,056 that management decided to seek that exceeded recommended amounts.




4. Investigative Workload                                                                             118 complaints/allegations the OIG received and
                                                                                                      evaluated from sources other than the Hotline that in-
                                                                                                      volved GSA employees and programs. Based upon an-
Table 4 presents detailed information on investigative                                                alyses of these allegations, OIG investigations were
workload by case category. The Table includes the                                                     not warranted.




                                                               Table 4. Investigative Workload
                 Case                                                                                              Cases Open      Cases       Cases    Cases Open
                Category                                                                                             4/1/90       Opened       Closed     9/30/90

     White Collar Crimes ..........................................................................                   239           103         106           236
     Other Crimes Involving GSA Operations ......................................... .                                 40            28          39            29
     Contractor Suspension/Debarment ................................................. .                               46            30          25            51
     Employee Misconduct ..................................................................... .                       20            39          42            17
     Other .................................................................................................           23            64          70            17

     TOTAL ...............................................................................................            368           264         282           350




14
5. Referrals                                                                                            Department of Justice or a U. S. Attorney for litigation
                                                                                                        consideration. The OIG also makes administrative
                                                                                                        referrals to GSA officials on cases disclosing non-
The OIG makes criminal referrals to the Department                                                      prosecutable wrongdoing on the part of GSA em-
of Justice or other authorities for prosecutive consid-                                                 ployees, contractors, or private individuals doing
eration and civil referrals to the Civil Division of the                                                business with the Government.




                                                            Table 5. Summary of OIG Referrals,
                      Type of Referral                                                                                Cases                  Subjects

     Criminal .................................................................................. .                      34                      71
     Civil ..........................................................................................                   10                      29
     Administrative .........................................................................                          100                     208

     TOTAL ......................................................................................                      144                     308




In addition, the OIG made 1 referral to another Federal                                                 suspended 10 employees, demoted 2 employees, and
agency for further investigation or other action and                                                    terminated 4 employees.
43 referrals to GSA officials for informational pur-
poses only.
                                                                                                        7. Monetary Results
                                                                                                        Table 6 presents the amounts determined to be owed
6. Actions on OIG Referrals                                                                             the Government as a result of criminal and civil ac-
                                                                                                        tions. The amounts do not necessarily reflect actual
Based on these and prior referrals, 21 cases (55 sub-                                                   monetary recoveries.
jects) were accepted for criminal prosecution and
                                                                                                        In addition, the OIG identified for recovery $ 77,731 in
4 cases (7 subjects) were accepted for civil litigation.
                                                                                                        money and/or property during the course of its
Criminal cases originating from OIG referrals resulted
                                                                                                        investigations.
in 24 indictmentslinformations and 15 successful
prosecutions. OIG civil referrals resulted in 7 settle-                                                 Because civil actions involve both audit and investiga-
ments or judgments. Based on OIG administrative                                                         tive efforts, $627,500 of the amount reported as civil
referrals, management debarred 30 contractors, sus-                                                     recoveries is also reported under management deci-
pended 42 contractors, reprimanded 16 employees,                                                        sions to disallow costs.
                                                                           I




                                                        Table 6. Criminal and Civil Recoveries
                                                                                                          Criminal                Civil              Total

     Fines and Penalties ...................................................................             $ 50,850            $                 $      50,850
     Settlements or Judgments ....................................................... .                                          6,547,695         6,547,695
     Restitutions ................................................................................         143,128                                   143,128

     TOTAL .........................................................................................     $193,978            $6,547,695        $6,741,673




8. OIG Subpoenas
During the period, 31 OIG                   SUbPOCI1<lS         werc issued.




                                                                                                                                                               15
APPENDICES
APPENDIX 1-AUDIT REPORT REGISTER

                                                                                           Financial
                                                                                       Recommendations
                                                                                    Funds to        Questioned
Date of    Assignment                                                              Be Put to       (Unsupported}
Report     Number                                Title                             Better Use          Costs
           (Note: Due to the pre-decisional nature of some audits, the financial recommendations
                  pertaining to these reports are not listed in this Appendix.)



PBS        Internal Audits
04/05/90   A00195     Review of Federal Protective Service Training, Region 6
04/09/90   A90925     Review of Operations of the Kansas City South Field Office
04112/90   A00418     Postaward Lease Review: Graphic Arts Building, Kansas
                      City, Missouri, Lease No. GS-06P-09831
04112/90   A90581     Review of the Central Office Architect-Engineer Deficiency
                      Committee
04/16/90   A00435     Preaward Lease Review: Federal Office Building, Oakland,
                      California, Lease No. GS-09B-88936-A
04/23/90   A90532     Review of Vacant Space in GSA Controlled Buildings,
                      Region 2
05/04/90   A00496     Preaward Lease Review: 600 Harrison Street, San Francisco,
                      California, Lease No. GS-09B-89959
05/07/90   AOO108     Review of the Physical Security Survey Program
05/09/90   A00530     Preaward Lease Review: Crystal Mall One, 1911 Jefferson
                      Davis Highway, Arlington, VA, Lease No. GS-11B-00103
05/09/90   A00531     Preaward Lease Review: South Tower, 2809 Jefferson Davis
                      Highway, Arlington, VA, Lease No. GS-11B-00104
05/10/90   A00529     Preaward Lease Review: Rockwall II Building, 5515
                      Securi ty Lane, Rockville, MD, Lease No. GS-ll B-00098
05111/90   A00126     Review of Controls Over the Removal and Disposal of
                      Asbestos Containing Materials Generated by the National
                      Capital Region
05/11/90   A00159     Review of the International Cultural and Trade Center
                      Lease Purchase Project
05111190   A90641     Review of Fire Safety Conditions at the Federal Office
                      Building, 1520 Market, St. Louis, Missouri
05115/90   A00472     Preaward Lease Review: Waterfront Plaza, Honolulu,
                      Hawaii, Lease No. GS-09B-89551
05/15/90   A90807     Review of Fire Safety Conditions at the John C. Watts
                      Federal Building, Frankfort, KY
05116/90   A90436     Review of Vacant Space in GSA Controlled Buildings,
                      Region 3
OS/24/90   A90947     Review of Contractor Employee Integrity Requirements in
                      Construction Quality Manager Contracts




18
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of     Assignment                                                                Be Put to    (Unsupported}
Report      Number                                 Title                              Better Use       Costs

OS/25/90    A00593       Preaward Lease Review: Internal Revenue Service National
                         Forensic Laboratory, Chicago, Illinois, Lease No.
                         GS-05B-15129
05/31190    A00350       Preaward Lease Review: 625 Indiana Avenue,           NW,
                         Washington, DC, Lease No. GS-11B-00091
05/31190    A00410       Pre award Lease Review: Casimir Pulaski Building, 20
                         Massachusetts Avenue, NW, Washington, DC, Lease No.
                         GS-IIB-50062
05/31190    A00452       Review of Postaward Lease Administration and
                         Management of Lease No. GS-03B-990 10 at the IRS Training
                         Center, Route 9 & Secondary Route 9119, Martinsburg, WV
05/31190    A90890       Review of the Public Buildings Service Rent Exemptions                     $1,265,439
06/07/90    A80990       Review of Controls Over Lease Payments, Region 5                           $3,737,On
06/08/90    A00053       Review of Buildings Management Field Office Procurement
                         Activities, John F. Kennedy Federal Building, Boston, MA
06/11/90    A00225       Pre award Lease Review: 2025 M Street, NW, Washington,
                         DC, Lease No. GS-11B-00081
06/13/90    A00624       Preaward Lease Review: 235 W. 48th Street, New York, New
                         York, Lease No. GS-02B-22542
06118/90    A00492       Preaward Lease Review: MCI Building, St. Louis, Missouri,
                         Lease No. GS-06P-09832
06118/90    A00655       Pre award Lease Review: Boulevard Office Park Building,
                         Wichita, Kansas, Lease No. GS-06B-14274
06/20/90    A00668       Pre award Lease Review: U.S. Immigration and Natu-
                         ralization Service, Chicago, Illinois, Lease No. GS-05B-
                         14966
06/25/90    A00627       Review of Time and Attendance Practices, Public Buildings
                         Service Field Office, Topeka, Kansas
06/27/90    A90839       Review of the Public Buildings Service Repair and
                         Alteration Inventory, Region 5
06128/90    A00667       Preaward Lease Review: Arlington Center Building, 4600 N.
                         Fairfax Drive, Arlington, Virginia, Lease No. GS-llB-00078
07/02/90    A90757       Review of the Asbestos Control Program, Region 9
07/13/90    A00569       Pre award Lease Review: Two Independence Square, 300 E
                         Street, SW, Washington, DC, Lease No. GS-llB-OOlll
07123/90    A00695       Preaward Lease Review: Third Street and Earll Drive,
                         Phoenix, Arizona, Lease No. GS-09B-88335
07/27/90    A00396       Preaward Lease Review: Hoffman I Building, 2461
                         Eisenhower Avenue, Alexandria, Virginia, Lease No.
                         GS-llB-90221
07/31/90.   A00077       Preaward Lease Review: City Post Office, 2 Massachusetts
                         Avenue, NE, Washington, DC, Lease No. GS-IIB-90222
07/31190    A00488       Review of Lease Alteration Proposal: Lincoln Property        $133,061
                         Company, Inc., Lease No. GS-llB-80202, Command
                         Center




                                                                                                                 19
                                                                                                Financial
                                                                                            Recommendations
                                                                                         Funds to     Questioned
Date of    Assignment                                                                   Be Put to    (Unsupported)
Report     Number                                  Title                                Better Use       Costs

08/07/90   A90871       Review of Fire Safety Conditions at the William J. Green, Jr.
                        Federal Building, Philadelphia, Pennsylvania, Region 3
08/09/90   AOO050       Review of Lease Management and Enforcement by the                $10,090
                        Jackson, MS, Field Office, Region 4
08/13/90   A90641       Review of the Fire Safety Program, Region 6
08116/90   AOO167       Review of Property Tax Escalation Clauses in Leases
                        Located in California
08123/90   AOO068       Review of the Administration of Elevator Maintenance
                        Contracts, Region 2
08/23/90   AOO080       Postaward Lease Review: New San Juan Office Building,
                        Hato Rey, Puerto Rico, Lease No. GS-02B-18864
08/23/90   AOO728       Pre award Lease Review: 10 Metrotech Center, Brooklyn,
                        New York, Lease No. GS-02B-22562
08123/90   A00762       Review of Time and Attendance Practices, Public Buildings
                        Service, Region 7
08/23/90   A90872       Review of the Jackson, Mississippi Buildings Management
                        Field Office, Region 4
08124/90   AOOO02       OlG Audit Highlights of Public Buildings Service Activities
                        in Fiscal Year 1989
08/27/90   A00388       Review of Field Office Operations, Portland, Oregon,
                        Region 9
08/28/90   A00805       Pre award Lease Review: Internal Revenue Service Building,
                        Florence, KY, Lease No. GS-04B-30231
08129/90   A00362       Postaward Lease Review: Executive Tower Inn, Lease No.                          $70,539
                        GS-08P-12742, Denver, Colorado
08/30/90   A90871       Review of Fire Safety Conditions at the Richard H. Poff
                        United States Courthouse and Federal Building, Roanoke,
                        Virginia, Region 3
08/31/90   A90933       Review of GSA's Art Preservation Program, Region 2
09/05/90   A90413       Review of Repair and Alteration Inventory, Public Buildings
                        Service, Region 7
09/07/90   A00818       Preaward Lease Review: City Crescent Office Building, Bal-
                        timore, Maryland, Lease No. GS-03B-09074
09/11/90   AOO783       Preaward Lease Review: Riddell Building, 1730 K Street,
                        NW, Washington, DC, Lease No. GS-llB-60216
09/14/90   A00812       Pre award Lease Review: Appletree Office Plaza, Cheek-
                        towaga, New York, Lease No. GS-02B-22550
09/19/90   A00881       Preaward Lease Review: United States Geological Survey,
                        Lease No. GS-C8B-09806
09120/90   A00861       Preaward Lease Review: 841 Chestnut Street, Philadelphia,
                        PA, Lease No. GS-03B-09048
09/26/90   A00500       Review of PBS Field Office Asbestos Operation and
                        Maintenance Control Program, Region 2
09/26/90   A00586       Preaward Lease Review: Plaza East, 1800 N. Kent Street,
                        Arlington, VA, Lease No. GS-llB-001l5
09127/90   A00894       Preaward Lease Review: U.S. Food and Drug Administra-
                        tion, Chicago, Illinois, Lease No. GS-05B-15098

20
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of    Assignment                                                                 Be Put to    (Unsupported,
Report     Number                                  Title                              Better Use    , Costs

09/27/90   A00900       Preaward Lease Review: IRS Building, Covington, KY, Lease
                        No. GS-04B-30039
09128/90   AOO141       Review of Maintenance and Control of Assets, Chesapeake
                        Field Office, Region 3
09/28/90   A00740       Preaward Lease Review: Nassif Building, 400 Seventh
                        Street, SW, Washington, DC, Lease No. GS-11B-00112
09/28/90   AOO779       Limited Review of the July 24, 1990, Fire in the Ariel Rios
                        Building
09/28/90   A90619       Preaward Lease Review: Crystal Mall 2-3-4, 1921-31-41
                        Jefferson Davis Highway, Arlington, Virginia, Lease No.
                        GS-11B-90179
09128/90   A90638       Review of Fire and Life Safety Conditions at the Federal
                        Building and Post Office, Bozeman, Montana
09/28/90   A90638       Review of Fire and Life Safety Conditions at the Wallace
                        Bennett Federal Building, Salt Lake City, Utah
09/28/90   A90638       Review of Fire Safety Program, Region 7




PBS        Contract Audits
04/lO/90   A00032       Preaward Audit of Litigation Support Services Contract:
                        O'Brien-Kreitzberg & Associates, Inc., Solicitation No.
                        GS-00P-89-BQD-0054
04/10/90   A00354       Audit of Claim for Increased Costs: H.Y. Allen Company,
                        Inc., Contract No. GS-11P-86-MKC7263
04/11/90   A00432       Preaward Audit of Architect and Engineering Services
                        Contract: Technical Associates, Inc., Consultant to Ebasco
                        Services Incorporated, Contract No. GS-02P-090-CUC-
                        0003(NEGJ
04/13/90   A00426       Preaward Audit of Supplemental Architect and Engineering
                        Services Contract: Syska & Hennessy, Inc., Solicitation No.
                        GS-02P-89CUD0068(NEG J
04/18/90   A00355       Audit of Claim for Increased Costs: Victorio Investment
                        Company, Ltd., Lease No. GS-09B-87117
04/18/90   A00374       Audit of Claim for Increased Costs: The Herrick Corpora-
                        tion, Subcontractor to Tutor-Saliba Corporation, Contract
                        No. GS09P88KTC0232
04/19/90   A00352       Preaward Audit of Architect and Engineering Services
                        Contract: Vitetta Group, Project No. IMD-96650
04124/90   A00381       Preaward Audit of Architect and Engineering Services
                        Contract: HWS Technologies, Inc., Solicitation No.
                        INE22009
04125/90   A00380       Preaward Audit of Architect and Engineering Services
                        Contract: A1vine and Associates, Inc., Solicitation No.
                        INE22009
04126/90   A00420       Preaward Audit of Architect and Engineering Services
                        Contract: Century M & E, Inc., Project No. IMD-96650

                                                                                                               21
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
 Date of    Assignment                                                                Be Put to    (Unsupported)
 Report     Number                                 Title                              Better Use       Costs

 04/30/90   A00379       Preaward Audit of Architect and Engineering Services
                         Contract: Bahr, Vermeer, and Haecker Architects, Solicita-
                         tion No. INE22009
 05/01/90   AOO176       Audit of Claim for Increased Costs: Korte Construction
                         Company, Contract No. GS05P88GBC01l4
 05/01/90   A00378       Preaward Audit of Architect and Engineering Services
                         Contract: Dana Larson Roubal and Associates, Solicitation
                         No. ZNE91270
 05/01/90   A00429       Preaward Audit of Architect and Engineering Services
                         Contract: Karn Charuhas Chapman & Twohey, Contract
                         No. GSllP90EGD0l23
 05/07/90   A00376       Audit of Claim for Increased Costs: Willis Construction
                         Co., Inc., Subcontractor to Tutor-Saliba Corporation, Con-
                         tract No. GS09P88KTC0232
 05/08/90   A00470       Audit of Claim for Increased Costs: The Ryan Company,
                         Contract No. GS-01P86BXC0164
 05114/90   A00532       Preaward Audit of Architect and Engineering Services
                         Contract: Joseph R. Loring & Associates, Consultant to
                         Hellmuth, Obata and Kassabaum, Contract No.
                         GS-11P-90EGC0118
 05116/90   A00430       Preaward Audit of Architect and Engineering Services
                         Contract: McDavid, Grotheer & Company, Contract No.
                         GS11P90EGD0123
 05/16/90   A00504       Preaward Audit of Architect and Engineering Services
                         Contract: Restl Designers, Inc., Consultant to Hellmuth,
                         Obata & Kassabaum, Solicitation No. GS11P90EGC0118
 05117/90   A00473       Pre award Audit of Architect and Engineering Services
                         Contract: Hellmuth, Obata & Kassabaum, P.C., Solicita-
                         tion No. GSllP90EGC01l8
 05/18/90   A00414       Preaward Audit of Architect and Engineering Services
                         Contract: Ebasco Services Incorporated, Contract No.
                         GS-02P-090-CUC-0003 (NEG)
 OS/24/90   A00510       Accounting System Survey, Old St. Louis Post Office
                         Associates, Lease No. GS-06B-28111
 OS/25/90   A00173       Preaward Audit of Change Order Proposal: GRG Engineer-
                         ing, Inc., Contract No. GS-02P-86CUC0085, RFP No. 31
 OS/25/90   A00375       Audit of Claim for Increased Costs: Pierce Enterprises,
                         Subcontractor to Tutor-Saliba Corporation, Contract No.
                         GS09P88KTC0232
 05/30/90   A00444       Audit of Claim for Increased Costs: Model Glass Company,
                         Subcontractor to Tutor-Saliba Corporation, Contract No.
                         GS09P88KTC0232
 05/30/90   A00474       Preaward Audit of Architect and Engineering Services
                         Contract: Wilson & Company, Solicitation No. GS-07P-90-
                         JUC-0002
 05/31/90   A00428       Preaward Audit of Cost or Pricing Data: Parkway Services,
                         Inc., Solicitation No. GS-04P-90-CXC-0003
 05/31/90   A00451       Preaward Audit of Pricing Proposal: Schindler Elevator
                         Corporation, Solicitation No. GS-06P-90-GXC-0026


22
                                                                                             Financial
                                                                                         Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    jUnsupportedJ
Report     Number                                 Title                              Better Use       Costs

06/01/90   A00227       Preaward Audit of Architect and Engineering Services
                        Contract: Edmunds & Hyde, Inc., Project No. IMD-96646
06/01/90   A00303       Audit of Claim for Increased Costs: George Hyman
                        Construction Company and Richard White Sons, Inc., A
                        Joint Venture
06/06/90   A00502       Preaward Audit of Change Order Proposal: MaIko Electric
                        Company, Second Tier Subcontractor to Stein & Company
                        Federal Center, Inc., Lease No. GS-05B-14850
06/06190   A00503       Preaward Audit of Change Order Proposal: MaIko Electric
                        Company, Second Tier Subcontractor to Stein & Company
                        Federal Center, Inc., Lease No. GS-05B-14850
06/07/90   A00520       Preaward Audit of Forward Pricing Proposal: Gracon
                        Corporation, Contract No. GS-07P-89-HUC-0085
06/08/90   A00329       Preaward Audit of Architect and Engineering Services
                        Contract: Jenkins Professionals, Inc., Project No.
                        IMD-96646
06/12/90   AOO459       Preaward Audit of Cost or Pricing Data: CRSS Commercial
                        Group, Inc., Solicitation No. GS-09P-87-KTC-0l29
06/12/90   A00524       Audit of Claim for Increased Costs: Pangborn Plumbing
                        Corporation, Subcontractor to Tutor-Saliba Corporation,
                        Contract No. GS09P88KTC0232
06/14/90   A00486       Audit of Claim for Increased Costs: Richerson
                        Construction, Inc., Contract No. GS-07P-8?-HUC-01l7
06/19/90   A00572       Pre award Audit of Architect and Engineering Services
                        Contract: Summer Consultants, Inc., Contract No.
                        GSllP90EGD0136
06/20/90   A00484       Pre award Audit of Cost or Pricing Data: DRM & Associates,
                        Inc., Contract No. GS-llP-90MJC-0004
06/20/90   A00497       Audit of Claim for Increased Costs: The Bared Company of
                        Puerto Rico, Inc., Subcontractor to GRG Engineering, Inc.,
                        Contract No. GS-02P-86CUC0085
06/21/90   A00596       Preaward Audit of Architect and Engineering Services
                        Contract: Schooley Caldwell Associates, Solicitation No.
                        GS05P88GBCO 135, IOH9000 1
06/25/90   A00616       Preaward Audit of Architect and Engineering Services
                        Contract: Howard Needles Tammen & BergendoH,
                        Solicitation No. GSI1P90EGC0142
06/26/90   A00601       Preaward Audit of Architect and Engineering Services
                        Contract: Gage-Babcock & Associates, Inc., Contract No.
                        GSllP90EGC0142
06/27/90   A00408       Preaward Audit of Architect and Engineering Services
                        Contract: Leland Eisenhower, Ltd., Contract No.
                        GS03P89DXC0034
06/27/90   A00598       Preaward Audit of Architect and Engineering Services
                        Contract: Hankins and Anderson, Inc., Contract No.
                        GS llP90EGDO 131
06/29/90   A00407       Preaward Audit of Architect and Engineering Services
                        Contract: Meyers & D' Aleo, Incorporated, Contract No.
                        GS03P89DXC0034


                                                                                                              23
                                                                                               Financial
                                                                                           Recommendations
                                                                                        Funds to     Questioned
Date of    Assignment                                                                  Be Put to    (Unsupported)
Report     Number                                  Title                               Better Use       Costs

07/03/90   A00541       Preaward Audit of Change Order Proposals: Economy
                        Mechanical Industries, Inc., Second Tier Subcontractor to
                        Stein & Company Federal Center, Inc., Lease No.
                        GS-05B-14850
07/05/90   A00465       Audit of Claim for Increased Costs: Intrepid Enterprises,
                        Inc., Subcontractor to Tutor-Saliba Corporation, Contract
                        No. GS09P88KTC0232
07/05/90   A00642       Preaward Audit of Architect and Engineering Services
                        Contract: Paul 1. Cripe, Inc., Solicitation No. GS05P-
                        90GBD0028
07/06/90   A00643       Preaward Audit of Lease Alteration Proposal: Veterans
                        Administration Alterations Project, Gilbane Properties,
                        Inc., Lease No. GS-OlB(PEL)-03314(NEG)
07/09/90   A00609       Preaward Audit of Lease Escalation Proposal: Charles T.
                        Matses Nominee Trust, Lease No. GS-01B(PEL)-03571
                        (NEG)
07110/90   A00594       Pre award Audit of Architect and Engineering Services
                        Contract: Hankins and Anderson, Inc., Department of State
                        Modernization, Phase I, Contract No. GSllP90EGC0142
07/16/90   A00526       Audit of Claim for Increased Costs: Superior Air Handling
                        Corporation, Subcontractor to Tutor-Saliba Corporation,
                        Contract No. GS09P88KTC0232
07116/90   A00599       Preaward Audit of Architect and Engineering Services
                        Contract: Aerosol Monitoring & Analysis of Washington,
                        DC, Inc., Contract No. GS11P90EGC0142
07/17/90   A00597       Audit of Claim for Increased Operating Costs: The
                        Equitable Life Assurance Society of the United States, Lease
                        No. GS-OIB(PRA)-02828 (NEG)
07/18/90   A00320       Preaward Audit of Change Order Proposal for Temporary
                        Roof and Mechanical Room Enclosures: Terminal
                        Construction Corp., e.O. 111 and e.O. 113, Contract No.
                        GS-02P-23256
07119/90   A00498       Preaward Audit of Change Order Proposal: The Bared
                        Company of Puerto Rico, Inc., Subcontractor to GRG
                        Engineering, Inc., Contract No. GS-02P-86CUC0085
07119/90   A00675       Preaward Audit of Change Order Proposal: Leo A. Daly
                        Company, Contract No. GSllP88EGDOl71
07/20/90   A00450       Audit of Claim for Increased Costs: Southwest Hazard
                        Control, Inc., Contract No. GS09P88KTC0320
07/20/90   A00623       Preaward Audit of Architect and Engineering Services
                        Contract: Gage-Babcock & Associates, Inc., Contract No.
                        GSllP90EGC0152
07/20/90   A90775       Audit of Claim for Increased Costs: Ogden Allied Services
                        Corporation, Contract No. GS-07-P-87-HT-C-0098
07/25/90   A00174       Preaward Audit of Change Order Proposal: GRG
                        Engineering, Inc., Contract No. GS-02P-86CUC0085, RFP
                        No. 37
07125/90   A00698       Audit of Claim for Increased Costs: Gilroy-Sims and
                        Associates, Lease No. GS-06B-10967


24
                                                                                             Financial
                                                                                         Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                 Title                              Better Use       Costs

07/26/90   A00562       Preaward Audit of Architect and Engineering Services
                        Contract: John Milner Associates, Inc., Contract No.
                        GS11P90EGD0131
07/27/90   A00600       Preaward Audit of Architect and Engineering Services
                        Contract: Construction Cost Systems, Inc., Contract No.
                        GSllP90EGC0l42
07/27/90   A00681       Preaward Audit of Architect and Engineering Services
                        Contract: Cape Environmental Management, Inc.,
                        Contract No. GS11P90EGD0155
07/30/90   A00405       Preaward Audit of Change Order Proposal: W.M. Schlosser
                        Company, Inc., Contract No. GS-llP89MKC0266
07/31190   A00543       Audit of Claim for Increased Costs: Solie Construction
                        Company, Inc., Contract No. GS-lOP-02712
07/31/90   A00680       Preaward Audit of Architect and Engineering Services
                        Contract: W. E. Gilbert and Associates, Inc., Solicitation
                        No. GS-04P-90-EXD-0034
08/06/90   A0031S       Preaward Audit of Change Order Proposal for Premature
                        Use of Permanent Heating System: Terminal Construction
                        Corp., e.O. 265, Contract No. GS-02P-23256
08/08/90   A00481       Preaward Audit of Architect and Engineering Services
                        Contract: Jessen, Inc., Architects and Planners, AlA,
                        Solicitation No. GS-07P-89-HUC-0071
08/08/90   A00494       Preaward Audit of Architect and Engineering Services
                        Contract: Hammer Consulting Engineers, Inc., Solicitation
                        No. GS-07P-S9-HUC-0071
OS/08/90   A00495       Preaward Audit of Architect and Engineering Services
                        Contract: Cunningham-Stoldt, Inc., Solicitation No.
                        GS-07P-89-HUC-0071
08/08/90   A00679       Preaward Audit of Architect and Engineering Services
                        Contract: Sherlock, Smith and Adams, Inc., Contract No.
                        GS-04P-90-EXD-0035
OS/08/90   A00755       Report on Agreed-Upon Procedures Review of Proposal for
                        Initial Pricing Under Solicitation No. GSllP90EGD0l55,
                        Bernard Johnson, Incorporated
OS/16/90   A00690       Preaward Audit of Architect and Engineering Services
                        Contract: James Posey Associates, Inc., Contract No.
                        GS11P90EGC0158
08/21190   A00663       Preaward Audit of Architect and Engineering Services
                        Contract: Rhodeside and Harwell, Inc., Contract No.
                        GSllPSSEGD0l71
08/23/90   A00703       Preaward Audit of Supplemental Architect and Engineering
                        Services Contract: ZMM, Inc., Solicitation No. GS-03P-90-
                        DXD-0009
08/28/90   A00678       Preaward Audit of Architect and Engineering Services
                        Contract: Barge, Waggoner, Sumner and Cannon, Inc.,
                        Contract No. GS-04P-90-EXD-0037
08/29/90   A00677       Preaward Audit of Architect and Engineering Services
                        Contract: Wolfberg, Alvarez and Associates


                                                                                                              25
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
 Date of    Assignment                                                                Be Put to    (Unsupported)
 Report     Number                                 Title                              Better Use       Costs
 08/30/90   A00664       Preaward Audit of Architect and Engineering Services
                         Contract: Hammer, Siler, George Associates, Contract No.
                         GS llP88EGDO 171
 08/30/90   A00741       Preaward Audit of Architect and Engineering Services
                         Contract: Krommenhoek, McKeown & Associates, Project
                         No. ICA18200/GS09P89KTD0135
 09/04/90   A00714       Preaward Audit of Architect and Engineering Services
                         Contract: Stearns Catalytic Architects, Ltd., Solicitation
                         No. GS-07P-90-JXC-0070
 09/06/90   A00704       Accounting System Survey:         The   Linpro   Company,
                         Solicitation No. GS-02B-22478
 09/10/90   A00727       Preaward Audit of Architect and Engineering Services
                         Contract: URS Consultants, Inc., Solicitation No.
                         GS05P90GBD0030
 09/13/90   A00772       Preaward Audit of Change Order Proposal: Otis Elevator
                         Company, Second Tier Subcontractor to Stein & Company
                         Federal Center, Inc., Lease No. GS-05B-14850
 09118/90   A00705       Preaward Audit of Architect and Engineering Services
                         Contract:  Sverdrup   Corporation,   Contract   No.
                         GSllP90EGD0156
 09/20/90   A00489       Preaward Audit of Lease Alteration Proposal: Lincoln
                         Property Company, Lease No. GS-llB-80202, Security
                         System Installation
 09/20/90   A00525       Audit of Claim for Increased Costs: Sasco Electric,
                         Subcontractor to Tutor-Saliba Corporation, Contract No.
                         GS09P88KTC0232
 09/21190   A00771       Audit of Termination Proposal: Tricil Environmental
                         Response, Inc., Contract No. GS-07P-86-HUC-0027
 09/24/90   A00611       Pre award Audit of Change Order Proposal No. 810-026:
                         Stein & Company Federal Center, Inc., Lease No.
                         GS-05B-14850
 09/24/90   A00739       Preaward Audit of Architect and Engineering Services
                         Contract: Biospherics, Incorporated, Contract No.
                         GSIIP90EGC0152
 09/25/90   A00816       Preaward Audit of Architect and Engineering Supplemental
                         8a Design Contract for Various Projects in Region 9,
                         Tectonics, Project No. ZCA90090
 09/25/90   A90645       Postaward Audit of Lease Operating Costs: Carolina                          $219,854
                         Distribution Associates, A Limited Partnership, Lease No.
                         GS-03B-500l1 for the Period June 1, 1985 through May 31,
                         1988
 09/26/90   A00501       Preaward Audit of Change Order Proposal No. 810-027:
                         Stein & Company Federal Center, Inc., Lease No.
                         GS-05B-14850
 09/26/90   A00610       Preaward Audit of Change Order Proposal No. 810-028:
                         Stein & Company Federal Center, Inc., Lease No.
                         GS-05B-14850
 09/26/90   A00733       Preaward Audit of Change Order Proposal: North American
                         Construction Corp., Contract No. GS-04P-89-EX-C0100


26
                                                                                                Financial
                                                                                            Recommendations
                                                                                         Funds to     Questioned
Date of     Assignment                                                                  Be Put to    (Unsupported}
Report      Number                                  Title                               Better Use       Costs

09/26/90    A00734       Preaward Audit of Change Order Proposal: North American
                         Construction    Corp.,   Abatement Technology and
                         Construction, Inc., Subcontractor Contract No. GS-04P-89-
                         EX-COlOO
09/27/90    A00685       Audit of Claim for Increased Costs: London and Leeds
                         Corporation, Lease No. GS-03B-65I2
09/27/90    A00769       Pre award Audit of Letter Contract: Martin Drywall &
                         Acoustical, Inc., Subcontractor to Parco Construction, Inc.,
                         Contract No. GS-04P-89-EX-C0099
09/27/90    Aoono        Preaward Audit of Letter Contract: Baumgardner
                         Mechanical, Inc., Subcontractor to Parco Construction,
                         Inc., Contract No. GS-04P-89-EX-C0099
09/28/90    A00706       Preaward Audit of Lease Alteration Proposal: Hall Financial
                         Group, Inc., Lease No. GS-llB-50030
09/28/90    A00796       Preaward Audit of Architect and Engineering Services
                         Contract: Brooks/Collier, Inc., Solicitation No. GS-07P-90-
                         JUC-0006


FSS         Internal Audits
04/26/90    A90564       Review of the Long Supply Program Paints and Chemicals
                         Commodity Center, Region 9
04/30/90    A8I005       Review of the Dayton Fleet Management Center
05/08/90    A0042I       Review of Quality Assurance Specialist Certification
                         Program, Region 7
05/15/90    A00356       Review of Quality       Assurance    Certification/Training
                         Program, Region 9
OS/21/90    A005I9       Review of Inventory of Sensitive          Items,   Western
                         Distribution Center, Region 9
05/31/90    A00266       Review of Multiple Award Schedules GSA Price Lists in the
                         Federal Supply Service, Automotive Commodity Center
                         and Tools Commodity Center
06/06/90    A80368       Review of the Los Alamos Fleet Management Center,
                         Region 7
06/07/90    AOGl05       Review of the Quality and Inventory Control Branch at the
                         Northeast Distribution Center, Belle Mead, NJ
06/08/90    A00023       Review of Time and Attendance Practices of the Federal
                         Supply Service Bureau, Region 2
06/29/90    A00628       Review of the Administrative Procedures of the Committee
                         for Purchase from the Blind and Other Severely
                         Handicapped
07/23/90    A00252       Review of the Implementation of the Quality Assurance
                         Specialists Certification Program, Region 5
08/09/90    A00332       Review of Personal Property Sales Procedures, Region 6
0811.4/90   AOOOOI       OlG Audit Highlights of Federal Supply Service Activities in
                         Fiscal Year 1989
08/17/90    A00131       Review of Customer Supply Center, Region 9


                                                                                                                 27
                                                                                             Financial
                                                                                         Recommendations
                                                                                      Funds to     Questioned
Date of     Assignment                                                               Be Put to    (Unsupported)
Report      Number                                Title                              Better Use       Costs

 08121190   A90782       Review of Federal Supply Service Contract Administration,
                         Region 4
 08124/90   A90791       Review of Stock on Administrative Hold, Fort Worth
                         Wholesale Distribution Center
 08129/90   A80368       Review of Fleet Management Operations, Region 7
 09/14/90   AOO150       Review of Federal Supply Service's Industrial Product
                         Center, Franconia, Virginia
 09121190   A00464       Consolidated Review of the Federal Supply Service's Long
                         Supply Program
 09127/90   A00169       Review of the Shelf-Life Program at the Southeastern
                         Distribution Center, Region 4
 09127/90   A00557       Review of the Multiple Award Schedules GSA Price Lists in
                         the General Products Commodity Center, Region 7
 09/28/90   A00468       Review of Hazardous Material and Hazardous Waste
                         Program at the Southeastern Wholesale Distribution
                         Center, Region 4


 FSS        Contract Audits
 04/03/90   A00280       Preaward Audit of Multiple Award Schedule Contract: Bio-
                         Rad Laboratories-Digilab Division, Solicitation No. FCGS-
                         Z7-89-0018-B-N
 04/04/90   A0030l       Preaward Audit of Multiple Award Schedule Contract: IFR
                         Systems, Inc., Solicitation No. FCGS-Y4-89-0002-B-N
 04/06/90   A00263       Preaward Audit of Multiple Award Schedule Contract: Wang
                         Laboratories, Inc., Solicitation No. 2FYS-89-AJ-0001B
 04/16/90   A00393       Preaward Audit of Multiple Award Schedule Contract:
                         Aritech Corporation, Solicitation No. 7FXI-C7-89-6302-B
 04/16/90   A00462       Preaward Audit of Multiple Award Schedule Contract:
                         Radionics, Inc., Solicitation No. 7FXI-C7-89-6302-B
 04/18/90   A00345       Preaward Audit of Multiple Award Schedule Contract:
                         Canon U.S.A., Inc., Contract No. FCGE-E1-89-0001B-N
 04/18/90   A00385       Preaward Audit of Multiple Award Schedule Contract:
                         ADM International, Inc., Solicitation No. FCNH-89-D508-
                         B-1l-28-89
 04120/90   A00305       Preaward Audit of Multiple Award Schedule Contract:
                         Outboard Marine Corporation,       Johnson Motors,
                         Solicitation No. 7FXI-L5-89-190l-B
 04/24/90   A00304       Preaward Audit of Multiple Award Schedule Contract:
                         Outboard Marine Corporation, Evinrude Motors,
                         Solicitation No. 7FXI-L5-89-1901-B
 04/25/90   A00360       Preaward Audit of Multiple Award Schedule Contract:
                         Beckman Instruments, Inc., Solicitation No. FCGS-
                         Z1-89-0016-B-12-5-89
 04/27/90   A00463       Preaward Audit of Multiple Award Schedule Contract:
                         Tektronix, Inc., Solicitation No. FCGS-Y4-0002-B-
                         N-12-5-89



28
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of    Assignment                                                                 Be Put to    /Unsupported)
Report     Number                                 Title                               Better Use       Costs

04/30/90   A00324       Preaward Audit of Multiple Award Schedule Contract:
                        Panasonic Communications & Systems Company,
                        Solicitation No. FCGE-El-89-0001B-N
04/30/90   A00346       Preaward Audit of Multiple Award Schedule Contract:
                        Monroe Systems for Business, Inc., Solicitation No. FCGE-
                        EI-89-0001B-N-1-9-90
04/30/90   A00383       Preaward Audit of Multiple Award Schedule Contract:
                        Sharp Electronics Corporation, Solicitation No. FCGE-
                        El-89-000lB-N
05/04/90   A00439       Preaward Audit of Multiple Award Schedule Contract:
                        Mercury Marine Division of Brunswick Corp., Mercury
                        Outboards, Solicitation No. 7FXI-LS-89-190l-B
QS/07/90   A00289       Preaward Audit of Multiple Award Schedule Contract:
                        Champion Products, Inc., Solicitation No. 7FXG-
                        H4-89-841O-B
05/08/90   A00440       Preaward Audit of Multiple Award Schedule Contract:
                        Mercury Marine Division of Brunswick Corp., Mariner
                        Outboards, Solicitation No. 7FXI-LS-89-1901-B
05/15/90   A00406       Pre award Audit of Pricing Proposal: Wajax-Pacific Fire
                        Equipment, Inc., Solicitation No. 7FXI-J6-89-4302-N
05/15/90   A00416       Preaward Audit of Multiple Award Schedule Contract:
                        Office Products International, Inc., Solicitation No. 2FYS-
                        AJ-89-0001-B
05/17/90   A00391       Preaward Audit of Multiple Award Schedule Contract:
                        Bruning Division, AM International, Inc., Solicitation No.
                        FCGE-EI-89-0001B-N
OS/24/90   A00397       Preaward Audit of Multiple Award Schedule Contract:
                        Acromag, Inc., Solicitation No. 7FXI-C7-89-6302-B
OS/24/90   AOOS61       Postaward Audit of Multiple Award Schedule Contract:                          $1,272
                        Acromag, Inc., Contract No. GS07Fl7244 for the Period
                        November 10, 1987 through August 31, 1990
OS/25/90   A00382       Preaward Audit of Multiple Award Schedule Contract:
                        Minolta Corporation, Solicitation No. FCGE-EI-89-
                        OOOlB-N
OS/25/90   AOOS08       Preaward Audit of Multiple Award Schedule Contract:
                        Protective Security Inc., Solicitation No. 7FXI-C7 -89-
                        6302-B
05/31/90   A00347       Preaward Audit of Multiple Award Schedule Contract:
                        Ricoh Corporation, Solicitation No. FCGE-El-89-0001B-N
05/31/90   A00437       Preaward Audit of Multiple Award Schedule Contract:
                        Applied Learning International, Inc., Solicitation No.
                        2FYG-JI-90-0006-M
05/31/90   AOOS34       Preaward Audit of Multiple Award Schedule Contract:
                        Stellar Systems, Inc., Solicitation No. 7FXI-C7-89-6302-B
05/31/90   AOOS4S       Postaward Audit of Multiple Award Schedule Contract:                           $3,934
                        Applied Learning International, Inc., Contract No.
                        GS02FS2S69 for the Period September 11, 1989 through
                        September 30, 1990



                                                                                                                29
                                                                                             Financial
                                                                                         Recommendations
                                                                                      Funds to     Questioned
Date of     Assignment                                                               Be Put to    (Unsupported)
Report      Number                                Title                              Better Use       Costs

 06/01/90   A00351       Preaward Audit of Multiple Award Schedule Contract:
                         Kontes Glass Company, Solicitation No. FCGS-
                         Z1-89-0016B
 06/04/90   A00251       Preaward Audit of Multiple Award Schedule Contract:
                         Hewlett-Packard Company, Solicitation No. FCGS-
                         Y4-89-0002-B-N-11-28-89
 06/05/90   A00522       Preaward Audit of Multiple Award Schedule Contract:
                         Cardkey Systems, Inc., Solicitation No. 7FXI-C7-89-
                         6302-B
 06/06/90   A00471       Preaward Audit of Multiple Award Schedule Contract:
                         Boston Whaler, Inc., Solicitation No. 7FXI-L5-89-1901-B
 06/07/90   A00466       Preaward Audit of Multiple Award Schedule Contract:
                         aCE'-USA, Inc., Solicitation No. FCGE-E1-89-0001B-
                         N-1-9-90
 06/08/90   A00294       Pre award Audit of Multiple Award Schedule Contract:
                         Kimble Glass, Inc., Solicitation No. FCGS-Z1-89-0016B
 06111190   A00359       Preaward Audit of Multiple Award Schedule Contract:
                         Beckman Instruments, Inc., Solicitation No. FCGS-
                         Z7 -89-0018-B-11-1-89
 06/12190   A00433       Preaward Audit of Multiple Award Schedule Contract:
                         Artistic Innovators, Inc., Solicitation No. 2FYS-AJ-89-
                         OOOl-B
 06113/90   A00367       Preaward Audit of Fee Redetermination Proposal: PHH
                         Homequity Corporation, Contract No. GS-00F-03022
 06/13/90   A00445       Preaward Audit of Multiple Award Schedule Contract:
                         Imtra Corporation, Solicitation No. 7FXI-L5-89-1901-B
 06/13/90   A00533       Pre award Audit of Multiple Award Schedule Contract:
                         Parker Systems, Inc., Solicitation No. 7FXI-L5-89-1901-B
 06114/90   A00454       Preaward Audit of Multiple Award Schedule Contract:
                         Lehigh Safety Shoe Company, Solicitation No. 7FXG-
                         E4-89-8409-B
 06118/90   A00363       Preaward Audit of Multiple Award Schedule Contract: Faber
                         Castell Corporation, Solicitation No. 2FYS-AJ-89-0001-B
 06118/90   A00493       Preaward Audit of Multiple Award Schedule Contract:
                         Nashua Corporation, Solicitation No. FCGE-E1-89-0001B-
                         N-1-9-90
 06121190   A00365       Pre award Audit of Multiple Award Schedule Contract:
                         aCE'-USA, Inc., Solicitation No. FCGE-E1-89-0001B-
                         N-1-9-90
 06/26/90   A00622       Preaward Audit of Multiple Award Schedule Contract:
                         Pharmacia LKB Biotechnology, Inc., Solicitation No.
                         FCGS-X9 -90-0023-B-N -4-10-90
 06127/90   A00353       Pre award Audit of Multiple Award Schedule Contract: 3M
                         Visual Systems Division, Solicitation No. FCGE-
                         El-89-0001B-N
 06127/90   A00579       Preaward Audit of Multiple Award Schedule Contract:
                         Skatron, Inc., Solicitation No. FCGS-X9-90-0023-
                         B-N-4-10-90
 06/29/90   A00331       Pre award Audit of Multiple Award Schedule Contract:
                         Xerox Corporation, Solicitation No. FCGE-E1-89-0001B-N
30
                                                                                            Financial
                                                                                        Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported,
Report     Number                                Title                              Better Use       Costs

06/29/90   A00390       Preaward Audit of Multiple Award Schedule Contract:
                        Adler-Royal Business Machines, Solicitation No. FCGE-
                        El-89-0001B-N
06/29/90   A00578       Preaward Audit of Multiple Award Schedule Contract:
                        Virginia Impression Products Co., Inc., Federal Marketing
                        Division, Solicitation No. 2FYS-89-AJ-000IB
06/29/90   A00578       Postaward Audit of Multiple Award Schedule Contract:                         $1,126
                        Virginia Impression Products Co., Inc., Federal Marketing
                        Division, Contract No. GS-02F-50092
07/09/90   A00427       Preaward Audit of Multiple Award Schedule Contract:
                        Phoenix Microsystems, Inc., Solicitation No. FCGS-
                        Y4-89-0002B-N-11-28-89
07/10/90   A00194       Postaward Audit of Multiple Award Schedule Contract:                        $7,415
                        Wexford Labs, Inc., Contract No. GS-lOF-47941 for the
                        Period May 14, 1987 through February 28, 1990
07/12190   A00584       Preaward Audit of Cost or Pricing Data: Monaco
                        Enterprises, Inc., Solicitation No. 7FXI-C7-89-6302-B
07112/90   A90876       Postaward Audit of Multiple Award Schedule Contract:                        $5,583
                        Structural Concepts    Corporation,  Contract   No.
                        GS-00F-76440 for the Period April 4, 1985 through
                        September 30, 1988
07/16/90   A00631       Pre award Audit of Multiple Award Schedule Contract:
                        Yamaha Motor Corporation, U.S.A., Solicitation No. 7FXI-
                        L5-89-1901-B
07117/90   A00548       Preaward Audit of Multiple Award Schedule Contract: A.B.
                        Dick Company, Solicitation No. FCGE-El-89-0001B-N
07117/90   A00585       Preaward Audit of Multiple Award Schedule Contract: S. C.
                        Johnson and Son, Inc., Solicitation No. TFTC-89-LF-7904B
07/18/90   A00279       Preaward Audit of Multiple Award Schedule Contract:
                        Allstate Office Products, Inc., Solicitation No. 2FYS-
                        AJ-89-0001-B
07118/90   A00658       Preaward Audit of Multiple Award Schedule Contract:
                        Schlage Electronics, Solicitation No. 7FXI-C7 -89-6302-B
07/19/90   A00323       Pre award Audit of Multiple Award Schedule Contract:
                        Eastman Kodak Company, Solicitation No. FCGE-
                        El-89-0001B-N
07119/90   A00588       Preaward Audit of Multiple Award Schedule Contract:
                        Firearms Training Systems, Inc., Solicitation No. 2FYG-
                        JI -90-0006-M
07/19/90   A00644       Preaward Audit of Cost or Pricing Data: Eckadams, A
                        Division of EAC Corporation, Solicitation No. FCNO-89-
                        S311-N-2-28-90
07/20/90   A00527       Preaward Audit of Multiple Award Schedule Contract:
                        Penetone Corporation, Solicitation No. TFTC-89-
                        MP-7906B
07/20/90   A00540       Postaward Audit of Multiple Award Schedule Contract:                         $518
                        Dynatech Laboratories, Inc., Contract No. GS-OOF-01804
07120/90   A00540       Preaward Audit of Multiple Award Schedule Contract:
                        Dynatech Laboratories, Inc., Solicitation No. FCGS-
                        X9-90-0023-B-N
                                                                                                              31
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of     Assignment                                                                Be Put to    (Unsupported)
Report      Number                                 Title                              Better Use       Costs
 07/20/90   A00602       Postaward Audit of Multiple Award Schedule Contract:
                         Intermetro Industries Corporation, Contract No.
                         GS-10F-47295 for the Period April 11, 1986 through
                         February 28, 1989
 07/24/90   A00281       Preaward Audit of Multiple Award Schedule Contract: IBM
                         Corporation, Solicitation No. 2FYS-AJ-89-0001B
 07/24/90   A00563       Preaward Audit of Multiple Award Schedule Contract:
                         Eastman Kodak Company, Solicitation No. FCGE-
                         85-9000 lOB-N
 07/24/90   A00565       Pre award Audit of Multiple Award Schedule Contract: 3M
                         Engineering Systems Division, Solicitation No. FCGE-
                         B5-90001OB-N
 07/25/90   A00539       Preaward Audit of Multiple Award Schedule Contract:
                         Delta Scientific Corporation, Solicitation No. 7FXI-
                         C7-89-6302-B
 07/26/90   A00589       Pre award Audit of Multiple Award Schedule Contract:
                         Organon Teknika Corporation, Solicitation No. FCGS-
                         X9-90-0023-B-N-4-10-90
 07/27/90   A00672       Postaward Audit of Multiple Award Schedule Contract:                          $1,399
                         Penetone Corporation, Contract No. GS-lOF-48934 for the
                         Period November 28, 1988 through June 30, 1990
 07/30/90   A00564       Preaward Audit of Multiple Award Schedule Contract: 3M
                         Company, Office Systems Division, Solicitation No. FCGE-
                         B5-90001OB-N
 07/31/90   A00552       Pre award Audit of Multiple Award Schedule Contract:
                         Eastman Kodak Company, Solicitation No. FCGS-
                         X9-90-0023-B-N -4-17 -90
 07/31/90   A00607       Preaward Audit of Multiple Award Schedule Contract:
                         Boehringer Mannheim Diagnostics Division, Solicitation
                         No. FCGS-X9-90-0023-B
 08/03/90   A00650       Pre award Audit of Multiple Award Schedule Contract:
                         Baxter Healthcare Corporation, Solicitation No. FCGS-
                         X9-90-0023-B
 08/07/90   A00507       Pre award Audit of Multiple Award Schedule Contract:
                         Rochester Midland Creative Chemistry, Solicitation No.
                         TFTC-89-MP-7906B
 08/08/90   A00446       Postaward Audit of Multiple Award Schedule Contract:                         $27,163
                         Outboard Marine Corporation, Johnson Division, Contract
                         No. GS07P17715 for the Period June 16, 1988 through
                         September 30, 1990
 08/08/90   A00447       Postaward Audit of Multiple Award Schedule Contlact:                         $16,720
                         Outboard Marine Corporation, Evinrude Division,
                         Contract No. GS07F17716 for the Period June 16, 1988
                         through September 30, 1990
 08/09/90   A00394       Preaward Audit of Multiple Award Schedule Contract: 3M
                         Safety & Security Systems Division, Solicitation No. 7FXI-
                         C7 -89-6302-B
 08/09/90   A00505       Preaward Audit of Multiple Award Schedule Contract: Mita
                         Copystar America, Inc., Solicitation No. FCGE-
                         E1-89-0001B-N


32
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of     Assignment                                                                Be Put to    (Unsupported}
Report      Number                                Title                               Better Use       Costs

08110/90    A00617       Preaward Audit of Multiple Award Schedule Contract:
                         Technicon Instruments Corp., Solicitation No. FCGS-
                         X9-90-0023-B-N-4-10-90
08/14/90    A00765       Postaward Audit of Multiple Award Schedule Contract:                         $21,824
                         Phoenix Microsystems, Inc., Contract No. GS-00F-93409
                         for the Period June I, 1987 through May 31, 1990
08/15/90    A00683       Pre award Audit of Multiple Award Schedule Contract:
                         Abbott Diagnostics, Solicitation No. FCGS-X9-90-0023-
                         B-N
08117/90    A00635       Preaward Audit of Multiple Award Schedule Contract:
                         Miles, Inc., Diagnostics Division, Solicitation No. FCGS-
                         X9-90-0023-B-N -4-17 -90
b8/23/90    A00449       Pre award Audit of Multiple Award Schedule Contract:
                         Medical Plastics Laboratory, Inc., Solicitation No. 2FYG-
                         JI-90-0006-M
08/24/90    A00671       Preaward Audit of Multiple Award Schedule Contract:
                         Radiometer America, Inc., Solicitation No. FCGS-
                         X9-90-0023-B-N-4-17-90
08/27/90    A00786       Postaward Audit of Multiple Award Schedule Contract:                          $3,522
                         Abbott Diagnostics, Contract No. GSOOF-03657 for the
                         Period October I, 1988 through September 30, 1990
08/29/90    A00603       Preaward Audit of Multiple Award Schedule Contract: Excel
                         Industries, Inc., Solicitation No. 7FXI-U5-90-3704-B
08/30/90    A00647       Preaward Audit of Cost or Pricing Data: Alistar Products
                         Co., A Division of R. Funk & Co., Inc., Solicitation No.
                         2FYS-89-AJ-OOOIB
08/31190    A00614       Preaward Audit of Multiple Award Schedule Contract: Casi-
                         Rusco, Inc., Solicitation No. 7FXI- C7-89-6302B
09/04/90    A00536       Preaward Audit of Multiple Award Schedule Contract:
                         Smith & Nephew Rolyan, Inc., Solicitation No. 7FXI-
                         L5-89-1901-B
09/06/90    A00570       Preaward Audit of Multiple Award Schedule Contract:
                         Development Dimensions International, Solicitation No.
                         2FY G-JI -90-0006-M
09/10/90    A00716       Preaward Audit of Multiple Award Schedule Contract:
                         Douglass Industries, Inc., Solicitation No. FCEN-IV-90IFS-
                         B-4-12-90
09111190    A00639       Preaward Audit of Multiple Award Schedule Contract:
                         Lanier Worldwide, Inc., Solicitation No. FCGE-
                         El-89-0001B-N
09/12190    A00660       Preaward Audit of Multiple Award Schedule Contract:
                         Instrumentation Laboratory, Solicitation No. FCGS-
                         X9-90-0023-B-N
09/12/90    A00806       Preaward Audit of Multiple Award Schedule Contract: Sarlo
                         Power Mowers, Inc., Solicitation No. 7FXI-U5-90-3704-B
 09/18/90    A00629      Preaward Audit of Multiple Award Schedule Contract:
                         Savin Corporation, Solicitation No. FCGE-El-89-0001B-
                         N-I-9-90


                                                                                                                   33
                                                                                               Financial
                                                                                           Recommendations
                                                                                        Funds to     Questioned
 Date of    Assignment                                                                 Be Put to    (Unsupported)
 Report     Number                                 Title                               Better Use       Costs
 09/18/90   A00654       Preaward Audit of Multiple Award Schedule Contract:
                         Research Institute of America, Inc., Solicitation No. 2FYS-
                         BD-90-0003-M
 09118/90   A00708       Pre award Audit of Multiple Award Schedule Contract:
                         Lawyers Cooperative Publishing Co., Solicitation No.
                         2FYS-BD-90-0003-M
 09119/90   A00618       Pre award Audit of Multiple Award Schedule Contract:
                         Alamo Sales Corporation, Solicitation No. 7FXI-
                         U5-90-3704-B
 09119/90   A00748       Preaward Audit of Multiple Award Schedule Contract:
                         Skyland Equipment Company, Solicitation No. 7FXI-
                         U5-90-3704-B
 09/20/90   A00554       Preaward Audit of Multiple Award Schedule Contract:
                         Filenet Corporation, Solicitation No. FCGE-B5-90001OB-
                         N-2-21-90
 09/20/90   A00737       Preaward Audit of Multiple Award Schedule Contract:
                         Commerce Clearing House, Inc., Solicitation No. 2FYS-
                         BD-90-0003-M
 09/21190   A00606       Pre award Audit of Multiple Award Schedule Contract:
                         Information Handling Services, Solicitation No. 2FYS-
                         BD-90-0003-M
 09/24/90   A00759       Preaward Audit of Multiple Award Schedule Contract:
                         Generac Corporation, Solicitation No. 7FXI-B7-89-6108-B
 09/28/90   A00682       Preaward Audit of Multiple Award Schedule Contract:
                         Commercial Drapery Contractors, Inc., Solicitation No.
                         FCNH -8 9-D508- B-ll-28-8 9
 09/28/90   A00719       Preaward Audit of Multiple Award Schedule Contract:
                         Congressional Information Service, Solicitation No. 2FYS-
                         BD-90-0003-M
 09/28/90   A00758       Preaward Audit of Multiple Award Schedule Contract:
                         DMT Corporation, Solicitation No. 7FXI-B7-89-6108-B
 09/28/90   A00777       Preaward Audit of Cost or Pricing Data: Baker
                         Manufacturing Company, Inc., Solicitation No. FCNH-89-
                         A706-N-2-13-90
 09/28/90   A90852       Postaward Audit of Multiple Award Schedule Contract:                         $115,270
                         Telex Communications, Inc., Contract No. GS-OOF-91841


 IRMS Contract Audits
 04/03/90   A00235       Preaward Audit of Multiple Award Schedule Contract:
                         Gandalf Data, Inc., Solicitation No. GSC-KESF-B-C-00042-
                         N-1l-16-89
 04/06/90   A00424       Preaward Audit of Pricing Proposal: Planning Research
                         Corporation, Systems Services Group, Information
                         Management Division, Solicitation No. WKC-E6-N-2001
 04/13/90   A00260       Preaward Audit of Multiple Award Schedule Contract:
                         Telxon Corporation, Contract No. GSOOK89AGS6428,
                         Option Year One Renewal



34
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of     Assignment                                                                Be Put to    (Unsupported)
Report      Nnmber                                 Title                              Better Use       Costs
04117/90    A00485       Postaward Audit of Multiple Award Schedule Contract:                         $3,760
                         Amdahl Corporation, Contract No. GS-OOK- 87-AGS-5366
04/18/90    A00478       Postaward Audit of Multiple Award Schedule Contract:                         $6,632
                         Compucom Systems, Inc., Contract No. GS-OOK-89-
                         AGS-6438
04119/90    A00337       Preaward Audit of Multiple Award Schedule Contract:
                         Compucom Systems, Inc., Solicitation No. GSC-KESF-
                         B-C-0042-N-1l-16-89
04/2,4/90   A00425       Preaward Audit of Pricing Proposal: Cbis Vanguard,
                         Incorporated, Solicitation No. WKC-E6-N-2001
04125/90    A00387       Pre award Audit of Multiple Award Schedule Contract:
                         Storage Dimensions, Inc., Solicitation No. GSC-KESF-
                         B-C-00042-N-I1-16-89
04/25/90    A00434       Postaward Audit of Multiple Award Schedule Contract:                          $2,000
                         Bruning Computer Graphics, Contract No. GSOOK-
                         89AGS6423
04126/90    A80451       Postaward Audit of Multiple Award Schedule Contract:                         $99,924
                         Granger Associates, Inc., Contract No. GSOOK86AGS0660
                         for the Period October I, 1985 through December 31, 1986
04/27/90    A00291       Preaward Audit of Multiple Award Schedule Contract: DJ&J
                         Software Corporation dba Egghead Discount Software,
                         Solicitation No. GSC-KESF-B-C-00042-N-11-16-89
04127/90    A00326       Preaward Audit of Multiple Award Schedule Contract: Chi
                         Corporation, Solicitation No. KESF-B-C-00042-N-ll-16-89
04127/90    A00371       Preaward Audit of Multiple Award Schedule Contract:
                         Epson America, Inc., Solicitation No. GSC-KESF-
                         B-C-00042-N-11-16-89
05/15/90    A00546       Audit of Termination Proposal: ARC Professional Services
                         Group, Contract No. GSOOK88AFD2587, Task Order No.
                         CCC579153
05/16/90    A00477       Preaward Audit of Multiple Award Schedule Contract: Core
                         International, Solicitation No. GSC-KESF-B-C-00042-
                         N-1l-16-89
05/17/90    A00290       Preaward Audit of Cost or Pricing Data: Martin Marietta
                         Data Systems, Contract No. GS-OOK-87-AJC0132
OS/22/90    A00340       Preaward Audit of Cost or Pricing Data: International
                         Technology Corporation, Solicitation No. GSC-KESF-
                         B-C-00042-N-11-16-89
05/30/90    A00290       Audit of Termination Proposal: Martin Marietta Data
                         Systems, Contract No. GS-OOK-87-AJC0132
05/31/90    A00621       Preaward Audit of Multiple Award Schedule Contract:
                         Precision Methods, Inc., Solicitation No. GSC-
                         KESR-00055-N-11-14-89
06/05/90    A00506       Preaward Audit of Cost or Pricing Data: Total Tee Systems,
                         Inc., Solicitation No. GSC-KESF-B-C- 00042-N-11-16-89
07/10/90    A00634       Preaward Audit of Cost or Pricing Data: Norden Service
                         Company, Inc., Solicitation No. GSC-KESO-C-00043-
                         N-4-10-90



                                                                                                                35
                                                                                               Financial
                                                                                           Recommendations
                                                                                        Funds to     Questioned
Date of     Assignment                                                                 Be Put to    (Unsupported)
Report      Number                                 Title                               Better Use       Costs
 07/18/90   AOO721       Preaward Audit of Cost or Pricing Data: Simpact Associates,
                         Inc., Solicitation No. GSC-KESO-C-00043-N-4-10-90
 07/25/90   A00282       Preaward Audit of Multiple Award Schedule Contract: IBM
                         Corporation, Solicitation No. GSC-KESF-B-C-00042-
                         N-1l-16-89
 07/31190   A00316       Pre award Audit of Multiple Award Schedule Contract:
                         Ampex Corporation, Solicitation No. GSC-KESV-00057-
                         N-1l-20-89
07/31190    A00738       Preaward Audit of Cost or Pricing Data: Datum, Inc.,
                         Solicitation No. GSC-KESO-C-00043-N-4-10-90
08/06/90    A00659       Preaward Audit of Multiple Award Schedule Contract:
                         Software and Management Associates, Solicitation No.
                         GSC-KESO-C-00043-N-4-10-90
08/07/90    A00592       Preaward Audit of Multiple Award Schedule Contract:
                         Tandem Computers, Inc., Solicitation No. GSC-KESO-
                         C-00043-N-4-10-90
08/08/90    A00670       Preaward Audit of Multiple Award Schedule Contract:
                         Software AG Federal Systems, Inc., Solicitation No. GSC-
                         KESO-C-00043-N-4-10-90
08/09/90    A00612       Preaward Audit of Multiple Award Schedule Contract:
                         Sharebase, Contract No. GS-00K-89-AGS-5579
08/14/90    A00651       Pre award Audit of Multiple Award Schedule Contract: Data
                         General Corporation, Solicitation No. GSC-KESO-
                         C-00043-N-4-10-90
08/16/90    AOO724       Preaward Audit of Multiple Award Schedule Contract:
                         Softool Corporation, Solicitation No. GSC-KESO-C-00043-
                         N-4-10-90
08/17/90    AOO641       Preaward Audit of Multiple Award Schedule Contract:
                         NeXT, Inc., Contract No. GS-00K-90-AGS-5690
08/21190    A00718       Preaward Audit of Multiple Award Schedule Contract:
                         Silicon Graphics, Inc., Contract No. GSOOK90AGS5773
08/22/90    A00568       Audit of Termination Proposal: Ernst & Young, Contract
                         No. MDA-903-87-D-9011
08/23/90    A00630       Pre award Audit of Multiple Award Schedule Contract:
                         Emulex Corporation, Solicitation No. GSC-KESO-C-00043-
                         N-4-10-90
08/27/90    A00595       Preaward Audit of Multiple Award Schedule Contract: Sun
                         Microsystems Federal, Inc., Solicitation No. GSC-KESO-
                         C-00043-N-4-10-90
08/27/90    A00674       Pre award Audit of Multiple Award Schedule Contract:
                         Computer Sales International, Inc., Solicitation No. GSC-
                         KESO-C-00043-N -4-1 0-90
08/27/90    A00749       Preaward Audit of Multiple Award Schedule Contract:
                         Megatek Corporation, Contract No. GSOOK90AGS5711
08/30/90    A00686       Preaward Audit of Multiple Award Schedule Contract:
                         Calcomp Inc., Contract No. GSOOK90AGS5714
09/06/90    A00482       Pre award Audit of Change Order Proposal: U.S. Sprint
                         Communications Company, Contract No. GSOOK-
                         89AHD0009

36
                                                                                            Financial
                                                                                        Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                 Title                             Better Use       Costs

09/06/90   AOO776       Preaward Audit of Multiple Award Schedule Contract: Input
                        Output Computer Services, Inc., Solicitation No. GSC-
                        KESO-C-00043-N -4-10-90
09/12/90   A00688       Preaward Audit of Multiple Award Schedule Contract:
                        Concurrent Computer Corporation, Solicitation No. GSC-
                        KESO-C-00043-N -4-10-90
09/14/90   AOO7l7       Preaward Audit of Multiple Award Schedule Contract:
                        Xerox Corporation, Solicitation No. GSC-KESO-C-
                        00043-4-10-90
09/18/90   A00699       Preaward Audit of Multiple Award Schedule Contract:
                        Comdisco, Inc., Solicitation No. GSC-KESO-C-00043-
                        N-4-10-90
09/20/90   A00483       Preaward Audit of Change Order Proposal: U.S. Sprint
                        Communications Company, Contract No. GSOOK-
                        89AHD0009
09/26/90   A00687       Pre award Audit of Multiple Award Schedule Contract:
                        Compuware     Corporation,  Contract No.    GSOOK-
                        89AGS5644, Option Year 2
09/26/90   A00752       Preaward Audit of Multiple Award Schedule Contract:
                        Tektronix, Inc., Solicitation No. GSC-KESO-C-00043-
                        N-4-10-90
09/27/90   A00666       Preaward Audit of Multiple Award Schedule Contract:
                        Digital Equipment Corporation, Solicitation No. GSC-
                        KESO-C-00043-N-4-10-90
09/27/90   A00700       Preaward Audit of Multiple Award Schedule Contract: The
                        Newman Group Computer Services, Solicitation No. GSC-
                        KESO-C-00043-N-4-10-90
09/27/90   A00761       Preaward Audit of Multiple Award Schedule Contract:
                        Information Dimensions, Inc., Solicitation No. GSC-
                        KESO-C-00043-N-4-10-90
09/28/90   A00648       Preaward Audit of Multiple Award Schedule Contract: NCR
                        Corporation,   Solicitation No. GSC-KESO-C-00043-
                        N-4-10-90
09/28/90   A00649       Preaward Audit of Multiple Award Schedule Contract: NCR
                        Comten, Solicitation No. GSC-KESO-C-00043-N-4-10-90
09/28/90   A00657       Preaward Audit of Multiple Award Schedule Contract:
                        Memorex Telex Corporation, Solicitation No. GSC-KESO-
                        C-00043-N-4- I 0-90
09/28/90   A00735       Preaward Audit of Multiple Award Schedule Contract:
                        Computer Associates International, Inc., Solicitation No.
                        GSC-KESO-C-00043-N -4-10-90
09/28/90   A00745       Preaward Audit of Cost or Pricing Data: Denro, Inc.,
                        Solicitation No. GSC-KESR-00059-N-04-23-90
09/28/90   A00824       Pre award Audit of Multiple Award Schedule Contract:
                        Unitech Software, Inc., Solicitation No. GSC-KESO-
                        C-00043-N-4-1 0-90




                                                                                                                 37
                                                                                              Financial
                                                                                          Recommendations
                                                                                       Funds to     Questioned
Date of     Assignment                                                                Be Put to    (Unsupported)
Report      Number                                    Title                           Better Use       Costs

 Other Internal Audits
 04/04/90   A00389       Review of Imprest Fund, Portland Field Office, Region 9
 04/09/90   A80735       Review of Employee Relocation Practices and Procedures
 05118/90   A00544       Review of Imprest Fund, 525 Market Street, San Francisco,
                         CA, Region 9
 OS/24/90   A00558       Review of Imprest Fund, Savannah, Georgia Field Office,
                         Region 4
 OS/29/90   A00469       Review of Imprest Fund, Golden Gate Field Office, Region 9
                                                        -
 05/31190   A00094       Review of Imprest Fund, San Juan Buildings Management
                         Field Office, Hato Rey, Puerto Rico
 05/31190   A90213       Review of Federal Buildings Fund, Reimbursable Work
                         Authorizations, Central Office Controlled Procedures
 06/14/90   A00490       Review of Imprest Fund, Grand Rapids Field Office,
                         Region 5
 06/21190   A00518       Review of the General Services Administration's Funding of
                         Improvements to the Walt Whitman Park
 06/26/90   A00491       Review of Imprest Fund, Cleveland Field Office, Region 5
 06/26/90   A00626       Review of Imprest Fund, Topeka, Kansas Field Office,
                         Region 6
 06/29/90   A00547       Review of Imprest Fund, North Dakota Field Office,
                         Region 7
 06/29/90   A00547       Review of Imprest Fund, South Dakota Field Office,
                         Region 7
 07118/90   A00691       Review of Imprest Fund, J.   w. McCormack Post Office and
                         Courthouse, Boston, MA
 08/06/90   A00656       Review of Imprest Fund, Sioux City, Iowa Field Office,
                         Region 6
 08/08/90   A00577       Review of Imprest Fund, Parkersburg Field Office, Region 3
 08/13/90   A00571       Review of Imprest Fund, North Spring Street Field Office,
                         Region 9
 08/20/90   A00222       Review of Non-Federal Debt Collection Procedures and
                         Controls
 08/31190   A00692       Review of Imprest Fund, Raleigh Field Office, Region 4
 09/20/90   A00547       Review of Imprest Fund, Wyoming Field Office, Region 7
 09/20/90   A00547       Review of Imprest Fund, Montana Field Office, Region 7
 09/20/90   A00555       Review of Imprest Fund, Laguna Niguel Field Office,
                         Region 9
 09/20/90   A00865       Review of Imprest Fund, Little Rock Buildings Management
                         Field Office, Region 7
09/24/90    A00799       Review of Imprest Fund, Dallas Buildings Management
                         Field Office, Region 7
09/24/90    A90869       Review of Delinquent ADP Receivables, Finance Division,
                         Region 7



38
                                                                                            Financial
                                                                                        Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    jUnsupported,
Report     Number                                Title                              Better Use       Costs

Other Contract Audits
06/29/90   A00587       Audit of Subcontractor Report: U.S. Sprint Communications
                        Company, Limited Partnership, Contract No. GSOOK-
                        89AHD0009
09/27/90   A00889       Audit of Settlement Proposal, Jefferson Bank and Trust,
                        GSBCA Appeal Nos. 9263 & 9704


Non..
GSA Internal Audits
09/19/90   A00560       Final Report on Reconciliation of GSA's Audited Financial
                        Statements with Financial Data Reported to the Depart-
                        ment of the Treasury
09/26/90   A00753       Review of the Administrative Procedures of the National.
                        Capital Planning Commission




                                                                                                                 39
APPENDIX II-SIGNIFICANT AUDITS FROM PRIOR
REPORTS

Under the Agency's audit management decision pro-          1990. As of that date, the Management Review Divi-
cess, GSA's Office of Administration, Management           sion had not received documentation that the recom-
Review Division, is responsible for ensuring imple-        mendation had been implemented.
mentation of audit recommendations after a manage-
ment decision has been reached. That office furnished
the following status information.                          Excessive Tax Escalation Payments
Fifteen audits highlighted in prior Reports to the Con-    Period First Reported: April 1, 1985 to September 30, 1985
gress have not been fully implemented. One report is
awaiting a management decision; two reports are not        This June 4, 1985 review di$closed that the tax escala-
being implemented in accordance with currently es-         tion clause contained in GSA leases, coupled with
tablished milestones; and the remaining twelve re-         some local taxing practices, resulted in exorbitant
ports are being implemented in accordance with             Government tax escalation payments. The report con-
currently established milestones.                          tained eight recommendations; six have been
                                                           implemented.

1. Significant Audit Awaiting                              The two remaining recommendations generally in-
                                                           volve specific actions to reduce GSA's liability for ex-
   Management Decision                                     cessive tax escalation payments. The recom-
                                                           mendations were originally scheduled for completion
                                                           in November 1985 and March 1986, respectively. Im-
Rental Overpayments                                        plementation actions for both recommendations were
                                                           scheduled for completion in May 1990. The OIG has
Period First Reported: October 1, 1987 to March 31, 1988   received, and is currently evaluating, a request to ex-
This OIG review found that a lessor had proposed, and      tend the implementation dates to December 1990.
the contracting officer erroneously accepted, unallow-
able costs for escalation when computing a rent in-
crease. The report has been removed from GSA's             3. Significant Audits Being
management decision process because it is involved in
ongoing litigation.                                           Implemented According to
                                                              Established Milestones
2. Significant Audits Not Being
   Implemented According to                                Fire Safety
   Established Milestones                                  Period First Reported: October 1, 1989 to March 31, 1990
                                                           A series of eight OIG reviews identified the need to
Fire Safety                                                improve the monitoring of fire safety conditions at
                                                           Federal facilities. Four reports were fully imple-
Period First Reported: October 1,1989 to March 31, 1990    mented as of September 30, 1990; one report, as previ-
A series of eight OIG reviews identified the need to       ously reported, contains a recommendation that is not
improve the monitoring of fire safety conditions at        being implemented in accordance with established
Federal facilities. As of September 30, 1990: imple-       milestones. The remaining three reports contained
mentation had been completed on four reports, imple-       18 recommendations; 15 have been implemented.
mentation was overdue on one report, and imple-            The remaining three recommendations involve test-
mentation was proceeding according to established          ing of an emergency system and performance of risk
milestones on the remaining three reports. This sec-       assessments. Full implementation is scheduled for
tion discusses the overdue audit. The three audits be-     various dates between December 1990 and May 1992.
ing implemented in accordance with established
milestones are discussed in the next section.
The overdue report contained nine recommendations;
                                                           Administration of Guard Service Contracts
eight have been implemented. The overdue recom-            Period First Reported: October 1, 1989 to March 31, 1990
mendation involved training of field office personnel
on completing self-inspections. This recommenda-           This regional review of the award and administration
tion was scheduled for completion by September 30,         of guard service contracts found that the region


40
waived contractually required training without seek-       report contained 27 recommendations; 18 have been
ing compensation from contractors, and that contrac-       implemented.
tors did not obtain required weapons permits. The
report contained 13 recommendations; 8 have been           One of the remaining recommendations required
implemented.                                               preparation of a demand letter to a contractor; it is
                                                           awaiting the Regional Counsel's concurrence. The
Four of the remaining five recommendations involve         other eight remaining recommendations involve
seeking recoveries from contractors. One of these rec-     changes and improvements in internal controls.
ommendations required the region to notify the con-        These changes will be completed with revisions to a
tractor of the amount of recovery, then collect this       handbook and are scheduled for full impleme.ntation
amount. It is due for implementation by January 1991.      by May 1991.
The other three recommendations 'requiring recov-
eries have open due dates pending the outcome of the
attempt to obtain a recovery from the contractor men-      Controls Over Accounts Receivable
tioned in the first recommendation. The last open rec-
ommendation involves contractors obtaining required        Period First Reported: October 1, 1989 to March 31, 1990
weapons permits and is due for implementation in
January 1991.                                              This OIG review identified significant problems with
                                                           billing procedures and computer programs used in the
                                                           Information Technology Fund. The report contained
Commercial Facilities Management                           six recommendations; none have been implemented.
Period First Reported: October 1, 1989 to March 31, 1990   Three of the recommendations require revisions to
                                                           computer programs, one involves a policy determina-
This review of a contractor's performance at a Federal     tion, another involves changes to the GSA billing doc-
facility concluded that actions needed to be taken to      ument, and the last requires modifications to the
improve the effectiveness of the Commercial Facili-        Request for Proposal. Implementation is scheduled for
ties Management Program. The report contained 15           various dates between December 1990 and December
recommendations; 14 have been implemented.                 1991.
The remaining recommendation involved the recov-
ery of contractor overcharges. It is scheduled for com-
pletion in March 1991.                                     Purchase Order Form
                                                           Period First Reported: April 1, 1989 to September 30, 1989
Distribution Center                                        This review of a purchase order form found that the
Period First Reported: October 1, 1989 to March 31, 1990   design of the form caused problems with data entry,
                                                           processing, and mailing. The report contained one rec-
Three OIG reviews at a GSA distribution center iden-       ommendation; it has not yet been implemented.
tified that enhancements are needed in the shelf-life
program, stock locator records, and security over sen-     The recommendation, which requires redesign of the
sitive items. As of September 30, 1990, two of the au-     purchase order form, is scheduled for completion in
dits had been fully implemented. The remaining             January 1991.
report contained four recommendations; two have
been implemented.
                                                           Multiple Award Schedule Program
Due dates for the remaining two recommendations,
which involve the performance of inventories in ac-        Period First Reported: October 1,1988 to March 31,1989
cordance with FSS handbook requirements, have been
suspended pending proposed revisions to that               This review identified the need for GSA action to im-
handbook.                                                  prove the identification of the Government's office
                                                           machine needs. The report contained five recommen-
                                                           dationsj three have been implemented.
Personal Property Sales
                                                           One of the remaining recommendations involves con-
Period First Reported: October 1, 1989 to March 31, 1990   tracting officer reviews of internal management re-
                                                           cords. The other recommendation involves the
This OIG review disclosed that improved controls           development of a comprehensive preaward procure-
were necessary to properly account for all personal        ment automation system. Both are scheduled to be
property and to assure deposit of sales proceeds. The      implemented by December 1992.




                                                                                                                   41
Construction Contract Administration                         Fire and Life Safety Systems
Period First Reported: April 1, 1987 to September 30, 1987   Period First Reported: October 1, 1983 to March 31, 1984
This review of the construction of a Federal building        A series of seven OIG reviews identified deficiencies
advised GSA management of the need to enforce the            in fire and life safety systems in GSA-controlled space.
requirements for schedules and price breakdowns in           Six reports had been fully implemented by September
construction contracts. The OIG made 13 recommen-            1988. The remaining report contained four recom-
dations; 12 have been implemented.                           mendations; three have been implemented.
The remaining recommendation involves obtaining a            Implementation of the remaining recommendation,
determination from an Architect and Engineering De-          which involves the installation of a new fire alarm sys-
ficiency Committee. The recommendation was origi-            tem in a Federal facility, is generally proceeding in ac-
nally scheduled for completion in June 1988, then            cordance with the action plan, although delays have
implementation was revised to June 1990. The con-            been experienced and revised implementation dates
tractor has since filed an appeal with the GSA Board of      have been granted. Full implementation is now sched-
Contract Appeals.                                            uled for October 1990.




42
APPENDIX m-DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                                    •   Referred 1,081 delinquent accounts, valued at
presented herein.                                                                           approximately $1.9 million, to debt collection
                                                                                            contractors.
                                                                                        •   Began reporting delinquent consumer debt to
GSA EFFORTS TO IMPROVE DEBT                                                                 credit reporting bureaus; 196 claims totaling
                                                                                            $137,050 have been referred.
COLLECTION
                                                                                        •   Initialized use of computerized spreadsheets
During the period April 1, 1990 through September 30,                                       and demand letters to achieve more timely and
1990, GSA efforts to improve debt collection and re-                                        aggressive followup, and emphasized increased
duce the amount of debt written off as uncollectible                                        training and manpower in the area of non-
focused on upgrading collections functions and en-                                          Federal debt collection.
hancing debt management. These activities included
the following:                                                                          •   Reviewed accounts receivable operations in one
                                                                                            region to ensure compliance with the Debt Col-
  •    The Federal Procurement Center, effective July                                       lection Act of 1982. This review included exam-
       1990, required advance payments prior to pro-                                        inations of account servicing procedures for
       viding service to the public.                                                        non-Federal activity.



NON-FEDERAL ACCOUNTS RECEIVABLE

                                                                                       As of              As of
                                                                                    April 1, 1990   September 30, 1990    Difference

      Total Amounts Due GSA ................................................        $56,281,844         $57,015,367       $ 733,523
      Amount Delinquent .........................................................   $30,963,492         $32,457,746       $1,494,254
      Total Amount Written Off as Uncollectible
        Between 4/1/90 and 9/30/90 .................................... .           $1,953,870



Of the total amounts due GSA and the amounts delin-                                   $15.7 million and $19 million, respectively, are being
quent as of April I, 1990 and September 3Q, 1990,                                     disputed.




                                                                                                                                        43
APPENDIX IV-SUMMARY OF OIG PERFORMANCE
DURING FISCAL YEAR 1990

During Fiscal Year 1990, OIG activities resulted in:
     •   826 audit reports.                                    •   Civil complaints against· 3 individuals and
                                                                   13 civil settlements or judgments.
  •      41 implementation reviews of internal audit
         reports.                                              •   4 referrals to other Federal and State agencies for
                                                                   further investigation.
     •   Over $255 million in recommendations that
         funds be put to better use and questioned costs.      •   40 reprimands, 14 suspensions, 3 demotions,
                                                                   and 7 terminations of GSA employees.
     •   Management decisions to put over $223 million
         in funds to better use.                               •   25 case referrals recommending suspension of
  •      Management decisions to recover funds, volun-             69 contractors.
         tary recoveries, court-ordered recoveries, and        •   29 case referrals recommending debarment of
         investigative recoveries of $21.5 million.                90 contractors.
     •   537 new investigations opened and 624 cases           •   48 contractor suspensions and 59 contractor
         closed.                                                   debarments.
     •   40 case referrals (98 subjects) accepted for crimi-   •   57 OIG subpoenas.
         nal prosecution and 13 case referrals (24 sub-
         jects) accepted for civil litigation.                 •   510 legislative matters and 201 regulations and
                                                                   directives reviewed.
  •      42 criminal indictmentslinformationsl com-
         plaints and 36 successful prosecutions on crimi-      •   77 Hotline calls and letters, 3 GAO referrals,
         nal matters referred.                                     and 13 other agency referrals.




44
NOTES
NOTES
